<html>
<title> - NOMINATIONS OF MARCUS PEACOCK, SUSAN P. BODINE, AND GRANTA Y. YAKAYAMA</title>
<body><pre>[Senate Hearing 109-725]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-725

 NOMINATIONS OF MARCUS PEACOCK, SUSAN P. BODINE, AND GRANTA Y. YAKAYAMA

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

    MARCUS PEACOCK, TO BE DEPUTY ADMINISTRATOR, U.S. ENVIRONMENTAL 
                           PROTECTION AGENCY

SUSAN P. BODINE, TO BE ASSISTANT ADMINISTRATOR FOR THE OFFICE OF SOLID 
   WASTE AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL PROTECTION AGENCY

 GRANTA Y. NAKAYAMA, TO BE ASSISTANT ADMINISTRATOR FOR ENFORCEMENT AND 
       COMPLIANCE ASSURANCE, U.S. ENVIRONMENTAL PROTECTION AGENCY

                               __________

                             JULY 14, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works
















                    U.S. GOVERNMENT PRINTING OFFICE

28-851 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001





















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 14, 2005
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     7
Boxer, Hon. Barbara, U.S. Senator from the State of California...    11
Duncan, Jr., Hon. John J., U.S. Representative from the State of 
  Tennessee......................................................     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     4
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     9
Obama, Hon. Barack, U.S. Senator from the State of Illinois......    31
Thune, Hon. John, U.S. Senator from the State of South Dakota....     8
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     5

                               WITNESSES

Bodine, Susan P., nominated by the President to be Assistant 
  Administrator, Office of Solid Waste and Emergency Response, 
  U.S. Environmental Protection Agency...........................    15
    Committee questionnaire...................................... 63-69
    Prepared statement...........................................    61
    Responses to additional questions from:
        Senator Boxer............................................72, 74
        Senator Jeffords.........................................    70
        Senator Lautenberg....................................... 73-74
        Senator Obama............................................    74
Nakayama, Granta Y., nominated by the President to be Assistant 
  Administrator, Enforcement and Compliance Assurance, U.S. 
  Environmental Protection Agency................................    17
    Committee questionnaire...................................... 78-86
    Prepared statement...........................................    76
    Responses to additional questions from:
        Senator Boxer............................................    87
        Senator Jeffords.........................................    87
Peacock, Marcus, nominated by the President to be Deputy 
  Administrator, U.S. Environmental Protection Agency............    13
    Committee questionnaire...................................... 40-48
    Prepared statement...........................................    38
    Responses to additional questions from:
        Senator Boxer............................................    55
        Senator Jeffords.........................................    49
        Senator Lautenberg.......................................    54
        Senator Lieberman........................................    59
        Senator Obama............................................    57

                          ADDITIONAL MATERIAL

Letters from:
    Madigan, Lisa, Illinois Attorney General, April, 5, 3005.....    91
    Representative Lynch, May 9, 2005............................    93
    Representative Towns, May 9, 2005............................    93
    Representative Waxman, May 9, 2005...........................    93
    Senator Boxer, May 9, 2005...................................    93
    Senator Obama, May 9, 2005...................................    93
Outstanding Document and Information Request to the EPA from 
  Senator Jeffords, as of July 14, 2005.......................... 88-90
































 
 NOMINATIONS OF MARCUS PEACOCK, SUSAN P. BODINE, AND GRANTA Y. YAKAYAMA

                              ----------                              


                        THURSDAY, JULY 14, 2005

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 9:30 a.m. 
in room 406, Dirksen Senate Building, Hon. James M. Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Jeffords, Thune, Vitter, Baucus, 
Boxer, Lautenberg, and Obama.
    Senator Inhofe. The committee will come to order.
    We will recognize Jimmy Duncan for a brief introduction. 
Then when he is completed, we will have the panel come forward. 
At this time, I will recognize my good friend, Jimmy Duncan.
    Congressman Duncan from Tennessee.

STATEMENT OF HON. JOHN J. DUNCAN, JR., U.S. REPRESENTATIVE FROM 
                     THE STATE OF TENNESSEE

    Mr. Duncan. Thank you, Senator Inhofe. It was certainly a 
privilege to serve with you in the House and sit next to you on 
the Transportation and Infrastructure Committee. As you know, I 
chaired the Aviation Subcommittee for 6 years, and you served 
with me on that. You were a great Member of the House and 
certainly are a great Member of the Senate.
    It is an honor also to be here with Senator Baucus and 
Senator Lautenberg. Senator Baucus' in-laws live in Knoxville, 
and we are always pleased to have him visit there.
    It is a privilege for me to be here to introduce my good 
friend, Susan Bodine. I have done this four or five times on 
the Senate side. The last time I did this was, my good friend, 
Senator Baker, asked me to introduce someone to the Senate 
Foreign Relations Committee on his nomination to become 
Ambassador of Japan. As you know, that was a totally non-
controversial nomination. I think the same could be said about 
the nomination of Susan B. Bodine to be Assistant Administrator 
for the Environmental Protection Agency.
    I think this nomination is of the same caliber. We have 6-
year limits on our chairmanships, and while I still serve on 
the Aviation Subcommittee, it has been my privilege to serve 
for the past 5 years as chairman of the Water Resources and 
Environment Subcommittee. Susan has been the staff director for 
that subcommittee during that time. I can tell you, in my 
career as a lawyer, a judge, and a Member of the Congress, I 
have worked with thousands and thousands of people. Susan, in 
my opinion, is one of the absolute best that I have ever worked 
with in any area, in any field.
    She is a person of the highest integrity. She is one of the 
most competent, capable people that I have ever worked with. 
She is a graduate of Princeton and the University of 
Pennsylvania Law School. She was with Covington and Burling, 
one of our outstanding law firms. Since then, of course, she 
has worked with me on the Water Resources and Environment 
Subcommittee.
    She is an environmentalist with a heart, and she knows that 
there has to be balance. She knows that regulations fall the 
hardest or hit the hardest on the smallest of our businesses 
and farms. She has technical competence, and I just could not 
say enough good things about Susan Bodine.
    I think the Environmental Protection Agency, one time when 
Administrator Whitman testified before us, I told her that I 
thought she had one of the toughest jobs in Washington. Being 
one of the top officials of the EPA I know will be a very 
difficult job. But I don't know anybody that could do a better 
job than Susan Bodine.
    I was really honored when she asked me to come here and 
speak on her behalf this morning. I can recommend her in the 
highest possible way. We are very, very fortunate that she is 
willing to serve this Nation in this manner.
    Senator Inhofe. That's good, Congressman Duncan. I thank 
you for that very excellent introduction.
    So that you will be aware of it, it is my understanding you 
have the WRDA bill on the floor of the House right now, and you 
are probably in desperate need of Susan's help on that, I would 
guess.
    Mr. Duncan. That's correct.
    Senator Inhofe. What I think is going to happen here, since 
we have five stacked votes at 10 o'clock, we will take this on 
to 10:15, then recess and reconvene at 3 o'clock. So you will 
have her during that time, and you can prepare accordingly. 
Thank you very much, Jimmy.
    Mr. Duncan. Thank you very much.
    Senator Inhofe. I would like to ask the others to take 
their positions at the table.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    The purpose of today's hearing is to consider the 
President's nominees for three positions at the EPA: the Deputy 
Administrator, Assistant Administrator for the Office of Solid 
Waste and Emergency Response, and Assistant Administrator for 
Enforcement and Compliance Assurance.
    For the two assistant administrator positions, there has 
not been a confirmed person in place for a significant period 
of time. It is my hope that we can move all of these nominees 
quickly.
    For all of our nominees, these are their first positions 
that require Senate confirmation. So it is a new experience for 
you guys. I want to extend a welcome to you and your families. 
In a moment, we will ask you to, before your comments, each one 
introduce any members of your family or those that are with 
you.
    Marcus Peacock has been nominated to be the Deputy 
Administrator for the EPA, which is the second highest ranking 
position at the EPA. This is a very important position for both 
the management as well as developing and implementing the 
overall policy direction of the Agency. I am pleased that we 
have a person of quality to fill that position.
    Mr. Peacock has been serving in the Bush administration for 
more than 4 years as the Associate Director for Natural 
Resource Programs for OMB. Prior to that, Marcus worked for the 
House Transportation and Infrastructure Subcommittee as staff 
director. Interestingly enough, he did that the year that I 
left that committee and came over to the Senate. I guess you 
chased me off.
    [Laughter.]
    Senator Inhofe. In that position, he worked very closely 
with the committee on a number of issues, including being the 
House lead staffer in conference on the Disaster Mitigation 
Act, what we refer to as the Inhofe bill. That turned out very 
well, so I am particularly pleased to see you here today.
    Susan Bodine, I think we have heard a lot about her. Maybe 
we don't need to elaborate too much right now. We know about 
your reputation, how hard you work and how fair you are. We are 
delighted to have you here in this very significant position.
    I don't think there is any doubt about Ms. Bodine's 
credentials to head this office. She comes from a strong policy 
background dealing with the issues in this program office, 
including Superfund. She is currently staff director and senior 
counsel for the House of Representatives Water Resources and 
Environmental Subcommittee of the Committee on Transportation 
and Infrastructure.
    As most of the committee knows by now, the No. 1 Superfund 
site in the entire country is in my State of Oklahoma. It is 
known as Tar Creek. We have made substantial progress at Tar 
Creek since I became Chairman. We actually have people to sit 
down in the room and talk to each other about it. I think we 
have made some great strides.
    Granta Nakayama has been nominated to serve as the 
Assistant Administrator for Enforcement and Compliance 
Assurance. Mr. Nakayama is a partner for environmental law and 
product safety at the Kirkland and Ellis law firm here in 
Washington, DC. In addition, he is an adjunct professor at the 
George Mason University School of Law, where he teaches 
environmental law.
    He was previously with the U.S. Naval Nuclear Propulsion 
program, where he served in positions including chief of 
quality control as an engineer.
    Now, I would like, before turning it over to Senator 
Jeffords, to ask each of you the question to which you will 
have to verbally respond so we can record it, are you willing 
to appear at the request of any duly constituted committee of 
Congress as a witness?
    Ms. Bodine. Yes.
    Mr. Peacock. Yes.
    Mr. Nakayama. Yes.
    Senator Inhofe. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed to this position?
    Mr. Nakayama. No.
    Mr. Peacock. No.
    Ms. Bodine. No.
    Senator Inhofe. Very good.
    Senator Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Thank you, Mr. Chairman. I would like to 
thank all of the nominees here this morning, and want each of 
you to know that your commitment to public service, which is 
being demonstrated here today, is admirable.
    Each of you has been nominated to assume a leadership 
position in the Environmental Protection Agency. The Agency's 
mission, protecting the environment, is becoming more and more 
important, and more and more challenging as this country 
continues to grow and competing pressures are put upon the 
Nation's resources.
    In the positions that you now have been nominated to fill, 
you will need to weigh these pressures and make decisions that 
will impact the health and safety of our environment and our 
citizens. It is no secret that I have been deeply disappointed 
by many of the decisions and policies of the Bush 
administration when it comes to the environment. As I have 
stated on numerous occasions, I believe the White House has a 
shortsighted view of many of the issues affecting our air and 
our water and our land.
    As each of you are looking toward assuming these new 
challenges, I want you to know that there is a major challenge 
that I have been faced with in dealing with your Agency, and 
that that challenge is access to information. It is our duty to 
inquire from time to time about the Agency's conduct of its 
mission, the Agency's expenditure of funds and the Agency's 
implementation of status in its purview, including the 
development of regulations under those statutes.
    You may know that I have been requesting information from 
EPA dating back to 2001 on clean air regulation and many other 
programs within the Agency's scope. After numerous discussions 
about this request and others, promises were made that the 
information would be forthcoming. I am still waiting. I 
probably sound like the broken record, but every EPA nominee 
that has come before this committee since I rejoined the 
committee in 2001 has said they would work with us toward 
fulfilling the information requests, and I am still waiting.
    It is my hope that each of you will help me and others on 
this committee to fulfill our obligations to the American 
people for complete information regarding the health and safety 
of our environment. I will just say I am tired of waiting, and 
hopefully you will relieve me of that burden.
    [The referenced document follows on page 88.]
    Thank you.
    [The prepared statement of Senator Jeffords follows:]

     Statement of Senator James M. Jeffords, U.S. Senator from the 
                            State of Vermont

    Each of you has been nominated to assume a leadership 
position at the Environmental Protection Agency. The Agency's 
mission--protecting the environment--is becoming more and more 
important and more and more challenging as this country 
continues to grow and competing pressures are put on the 
nation's resources. In the positions that you have been 
nominated to fill, you will need to weigh these pressures and 
make decisions that will impact the health and safety of our 
environment and our citizens.
    It is no secret that I have been deeply disappointed by 
many of the decisions and policies of the Bush administration 
when it comes to the environment. As I have stated on numerous 
occasions, I believe the White House has a short-sighted view 
on many of the issues affecting our air, our water and our 
land.
    As each of you are looking toward assuming these new 
challenges, I want you to know that there is a major challenge 
that I have been faced with in dealing with your Agency, and 
that challenge is access to information.
    It is our duty to inquire from time-to-time about the 
Agency's conduct of its mission, the Agency's expenditure of 
funds, and the Agency's implementation of statutes in its 
purview, including the development of regulations under those 
statues.
    You may know that I have been requesting information from 
EPA, dating back to 2001, on Clean Air Act regulations and many 
other programs within the Agency's scope. After numerous 
discussions about this request and others, promises were made 
that the information would be forthcoming. I'm still waiting.
    I probably sound like a broken record, but every EPA 
nominee that has come before this Committee since I rejoined 
the Committee in 2001 has said they would work with us toward 
fulfilling the information requests, and I'm still waiting.
    It is my hope that each of you will help me and others on 
this Committee fulfill our obligations to the American people 
for complete information regarding the health and safety of our 
environment. I am tired of waiting. Thank you, Mr. Chairman.

    Senator Inhofe. Thank you, Senator Jeffords.
    We will do the early bird rule, it will be Senator Vitter, 
Senator Baucus, Senator Thune, Senator Lautenberg and Senator 
Boxer.
    Senator Vitter.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman, thank you, Ranking 
Member Jeffords, for this hearing today.
    I appreciate the opportunity to be with the nominees, and I 
certainly echo Senator Jeffords' comments thanking you for your 
commitment to public service.
    Mr. Chairman, I am a little biased, but I have found some 
of the best things to come around here on the Senate side come 
from the House side. Two of our nominees are great examples of 
that today. I had the real pleasure of working with Susan in 
the House. She was incredibly helpful in helping us with the 
Lake Pontchartrain cleanup legislation when I was in the House. 
I know Chairman Young will face a real loss, but the EPA a huge 
gain as she moves over there.
    I have also worked with Marcus on the House Transportation 
Committee and had the opportunity to work with him after he 
moved to OMB as well. Probably better results when he was at 
Transportation than OMB, but had the pleasure of working with 
him in all situations.
    Grant I have not worked with before, but I have a great 
deal of respect for him. We both have higher degrees in 
Cambridge, MA, which I think makes us the two only Republicans 
in recent human history to come out of Cambridge, MA. I respect 
his background.
    On a serious note, I have met with two of these nominees 
about an issue I continue to be very focused on with this 
committee, and that is the proper relationship and use of 
section 10 of the Rivers and Harbors Act of 1899 and the 
relationship between that and section 404 of the Clean Water 
Act.
    Senator Inhofe. Why don't you hold up just a minute and 
let's find out who is hammering in the next room?
    [Laughter.]
    Senator Inhofe. Then we will continue.
    His comment about the House is very appropriate. I think 
Senator Lautenberg is the only one at this table who did not 
serve in the House.
    OK, Senator Vitter.
    Senator Vitter. Thanks, Mr. Chairman.
    As you know, I have a huge concern about some very recent 
use of section 10 of the Rivers and Harbors Act of 1899 used by 
the Corps to regulate activity miles and miles off any open 
navigable waters in Louisiana. Of course, section 10 is about 
navigable waters and keeping it clear for navigability.
    There are some real issues off those waterways; in 
particular, issues in Louisiana about the proper or improper 
logging of trees in coastal wetlands areas, coastal forests. I 
believe the right area of the law to address that in is section 
404 of the Clean Water Act. So I have talked to two of these 
nominees specifically about being engaged with EPA in terms of 
re-looking at the application of section 404, the proper 
relationship between that and section 10. I think that is a 
very promising and very correct way to address the real issues 
that we have in some of these areas well off any navigable 
waterway, and not abuse and expand the role of section 10 and 
use of that by the Corps.
    So I look forward to continuing to work with these folks 
and EPA on that solution, work with the committee as well in 
the context of WRDA. Thank you, Mr. Chairman.
    [The prepared statement of Senator Vitter follows:]
       Statement of Senator David Vitter, U.S. Senator from the 
                           State of Louisiana
    Chairman Inhofe, Ranking Member Jeffords, thank you for holding 
this hearing today. I appreciate the opportunity to hear from our 
nominees. Before they get started, I want to make a few brief comments.
    I have reviewed the background of our nominees and am biased toward 
the confirmation of at least two of them. You know, Mr. Chairman, there 
is one thing I have found many good things come from the U.S. House of 
Representatives and two of our candidates come from the other body.
    I had the pleasure of working with Susan Bodine in the House. She 
was incredibly helpful in progressing the cleanup of Lake Pontchartrain 
and I was always impressed by her substance on issues. Chairman Young 
will have a significant loss and the EPA a huge gain in your new 
position. I wish you the best and look forward to working with you in 
your new role.
    Marcus Peacock also worked for the House Transportation Committee 
and we had the opportunity to work together on budget issues while he 
served at OMB. He wasn't always as loose with the checkbook as I had 
hoped, but he was always fair and upfront in our dealings.
    The only thing in common I could find with Grant Nakayama is that 
we both attended school in Cambridge so I guess that make us the only 
two Republicans to come out of Cambridge, MA.
    On a serious note, I have met with some of you regarding an issue 
we are having in Louisiana with the Corps of Engineers attempting to 
use a provision designed to prevent ``obstructions to navigation'' on 
dry land.
    Section 10 of the Rivers and Harbors Act of 1899 was intended to 
regulate, and I quote ``wharfs, piers, dolphins, booms, weirs, 
breakwaters, bulkheads, jetties, or the structures''. The Corps 
recently determined that their Section 10 jurisdiction could extend, 
``several miles from open navigable water'' in Louisiana.
    This committee passed an amendment to the Water Resources 
Development Act (WRDA) by a 12-6 vote to clarify the Corps 
jurisdiction. I am committed to working with a number of Senators on 
the committee to address their concerns and believe the EPA could play 
an important role in this resolution.
    As you know, Congress passed the Clean Water Act to protect and 
improve our water quality. In an attempt to solve our problem here, I 
believe we should explore the relationship of the Section 10 and 
Section 404 regulatory programs. I look forward to working with you to 
resolve this issue.
    I thank the witnesses for being here today and look forward to your 
statements.

    Senator Inhofe. Thank you, Senator Vitter.
    Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    Mr. Chairman, I am most interested in the nomination of Mr. 
Granta Nakayama to be Assistant Administrator for the Office of 
Enforcement and Compliance Assistance at EPA. While I value my 
relationship with all appointees at EPA, and for many, many 
years, given my State's close working relationship with the 
Agency, particularly through the Superfund program, and I must 
say, we have a lot of Superfund sites in Montana, Mr. 
Nakayama's background raises particular issues and concerns in 
relation to Libby, MT.
    I understand that Mr. Nakayama is currently a partner at 
the firm of Kirkland and Ellis. Kirkland and Ellis represents 
W.R. Grace in that company's chapter 11 bankruptcy filing.
    The firm also defends Grace against the criminal 
indictments that were brought against the company and against 
seven current and former Grace executives by the Justice 
Department. Those indictments allege that Grace and its 
executives engaged in a protracted conspiracy to hide the 
dangers of its vermiculite mining and milling operations from 
the people of Libby, MT.
    Mr. Chairman, these issues are relevant because it has 
become clear that W.R. Grace deliberately shielded billions in 
assets prior to filing for bankruptcy, leaving victims and the 
Government with pennies on the dollar for health care and 
cleanup costs. Only a small percentage of the money that Grace 
spun off has been recovered by the bankrupt estate.
    Grace has also consistently fought having to pay its fair 
share of cleanup costs in Libby, recently appealing a 2003 
Federal District Court ruling that it owes over $50 million to 
the U.S. Government and to U.S. citizens. To date, cleanup 
costs in the town of Libby have topped $100 million, due to the 
extensive nature of the contamination there, where asbestos has 
been found in hundreds of homes, gardens, high school tracks 
and other areas, subjecting area residents to ongoing exposure 
to asbestos fibers.
    Mr. Chairman, I wish you could meet Les Gramstead. I wish 
Mr. Nakayama could meet Les Gramstead. Les Gramstead was a 
miner. Les came down every day from the mine, his clothes caked 
with dust and powder. He would go home, embrace his wife, kids 
jump into his lap, they all have asbestos related disease. All 
of them. That is just one example.
    At that time and prior to that time, W.R. Grace knew it was 
contaminating Libby. It knew it. Records show it. What did 
Grace do about that? Nothing. Did Grace tell its citizens? No. 
Did Grace enact some protective actions to shield its employees 
from health risks? No. Nothing. Nothing. Nothing.
    Now that this has been uncovered, what has Grace done to 
give health benefits to people? Paltry little pittance. Plans 
that are full of loopholes, full of caveats, don't amount to 
anything. What recourse do the people of Libby have with 
respect to W.R. Grace? Again, nothing. There are no assets 
left. Grace and the firm of Kirkland and Ellis figured out a 
way to transfer 80 or 90 percent of Grace's assets off and have 
it shielded, so the people of Libby have no assets to go after.
    This is a huge problem, Mr. Chairman. It's not just Les 
Gramstead. It's maybe 20 percent of the people of Libby, MT, 
who have asbestos related diseases. And this isn't just 
ordinary asbestos. This is tremulite asbestos. Tremulite 
asbestos is much more vicious. Why? Because it is a form of 
asbestos, tremulite asbestos, gets into your lungs, has deeper 
hooks that lasts longer, longer latency, harder to detect, and 
it kills more easily. People in Libby are dying, and some have 
already died.
    So the question is, what do we do about this? It may be 
unfortunate that Mr. Nakayama has been tainted by Grace's 
reputation in my home State, and indeed elsewhere in the 
country. I understand that Kirkland and Ellis has stated that 
Mr. Nakayama has nothing to do with the firm's representation 
of W.R. Grace.
    However, I would not be doing my duty to represent the best 
interests of the citizens of the State of Montana and Libby if 
I did not carefully consider Mr. Nakayama's nomination and any 
connection he may or may not have with W.R. Grace.
    It is critical, as zealous enforcement is necessary in this 
instance to hold Grace accountable for the full extent of its 
wrongdoing in Libby. There is not a lot of gray area here. 
Anything that might weaken such enforcement raises a red flag 
with me. At the very least as a partner at Kirkland and Ellis, 
Mr. Nakayama has profited, he has profited by his firm's 
representation of Grace.
    Additionally, if confirmed, Mr. Nakayama will have to 
recuse himself from any matters involving W.R. Grace at EPA. 
What kind of message does this send to EPA's rank and file and 
to Grace, if EPA's top enforcer cannot lead the charge against 
such an egregious violator of the Nation's environmental and 
public health and safety laws?
    Given the scope of Mr. Nakayama's environmental practice at 
Kirkland and Ellis, in how many other instances will Mr. 
Nakayama have to recuse himself in pursuing an enforcement 
matter? These are important considerations to take into account 
as we review Mr. Nakayama's record and his fitness to hold the 
top enforcement post at EPA.
    Mr. Chairman, I look forward to hearing from Mr. Nakayama 
directly and from other nominees. Thank you.
    Senator Inhofe. Thank you, Senator Baucus.
    Senator Thune.

  OPENING STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM THE 
                     STATE OF SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman and Senator 
Jeffords. I also want to welcome our nominees here this morning 
and will be very brief in my remarks. These are important jobs, 
important positions that we are talking about and important 
issues with which you will deal in your capacities there.
    But as Senator Vitter alluded to, I also had the experience 
of working with Ms. Bodine and Mr. Peacock as a member of the 
House Transportation Committee. Both are extremely highly 
qualified and capable public servants, people who operate with 
a high level of professionalism and I had the chance to work 
with them on the last highway bill, TEA-21 and subsequently 
with Mr. Peacock at the OMB, although I would echo what Senator 
Vitter said, his answers always seemed to be more favorable 
when he was on the Transportation Committee than they were at 
OMB.
    But in any event, both of these people bring great 
experience, quality capabilities and solid character to your 
new positions, and I very much look forward to working with 
you. Also, Mr. Nakayama, I should say I don't have experience 
with, but I look forward to working with you as this process 
moves forward as well. We hope that we will have a lot of 
successes in the years ahead in addressing what are some of the 
major challenges facing us in terms of environmental policy and 
doing it in a way that is conscious and consistent with the 
very best environmental standards, but in a sensible and 
common-sense, science-based approach, which I think is a 
perspective that I hope we can all bring to this process.
    Thank you again for your willingness to serve. I look 
forward to your testimony and to working with you as the 
confirmation process moves forward.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Thune.
    Senator Lautenberg.

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman, for calling this 
hearing and giving us an opportunity to learn more about the 
qualifications of these nominees. The American people are so 
dependent on Government to protect them against environmental 
problems, global warming, contaminated water, polluted air, all 
of those things. This is one of the principal committees in 
establishing standards for our future generations, our 
children, our grandchildren.
    I am concerned also about the fact that Mr. Nakayama and 
Mr. Peacock both have had significant private interests on the 
side of industry before serving in the Government. It seems 
that at EPA vigilance is lacking. When I see the Justice 
Department cave in to the tobacco industry, when a former big 
oil executive revised reports on global warming, it raised 
doubts on the part of the American people. Our Government has 
to look out for the public interest, not the particular special 
interest.
    That is true, absolutely true in case of the positions that 
both of you are ready to assume. We are being asked to confirm 
Mr. Peacock as the Deputy Administrator, Environmental 
Protection Agency. His job is to use the skill and knowledge 
that he has acquired for all of our people. The nomination 
comes at a time when EPA scientists have expressed concerns 
about a new Agency plan for risk assessments that will give 
more influence to special interests.
    When we had an opportunity to talk a few weeks ago, Mr. 
Peacock, I asked that you look into that situation, and I am 
still waiting to hear from you.
    [The response referred to follows:]

    I have looked into the issues you raised, and my response indicates 
what I have learned about this issue.
    There are two major purposes of the proposed changes: (1) to 
identify and resolve major scientific issues early in the assessment 
development process and thereby facilitate high quality and timely 
completion of assessments; and (2) to increase transparency in the 
assessment development process and thereby assure full and open 
consideration and scientific review of relevant information.
    EPA is planning to hold a public workshop on the proposed new 
process to solicit comments, suggestions and concerns from the IRIS 
user community and stakeholders. The workshop will be announced in the 
Federal Register and on the IRIS web site.

    Senator Lautenberg. We are being asked to confirm Mr. 
Nakayama as a top ranking compliance official. Your job would 
be to make sure that industry is complying with guidelines and 
regulations that are put in place to protect the American 
people.
    I remind each of you that you may have to wear a different 
hat in this job, and I hope that you can focus on what the 
American people need.
    When I came to the Senate, as the Chairman noted, I am the 
only one here who did not come from the House of 
Representatives. I came from the corporate world. I was asked 
by a reporter during the campaign what I would do if a question 
came up, with my company doing any business with the 
Government. I made a commitment that I would sell the stock 
that I had in the company, and it turned out to be a very large 
company, because my mission, as I took the oath, I knew that it 
was my mission to take care of the people I represented.
    When I think about my legislative responsibilities, I 
always picture my 10 grandchildren. They are all very young, 
the oldest is 11. When I see that he has asthma and my daughter 
has to find the nearest emergency room before he can play 
baseball or whatever sport he is engaged in to make sure that 
if he has an attack that they can take him to the right place.
    But each of you who have family responsibilities also have 
to have the same feeling about what you want. So when we have a 
chance to ask questions, Mr. Chairman, we will go into some 
detail and hope that we can establish the fact that the 
particular roles that you had in the past are behind you and we 
are going to be looking forward as representatives of the 
American people. Thank you.
    [The prepared statement of Senator Lautenberg follows:]
     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey
    Mr. Chairman, thank you for calling this hearing and giving us an 
opportunity to learn more about the qualifications of these nominees. 
The American people depend on our Government to be vigilant in 
safeguarding our environment and health. In some cases lately, it has 
seemed that vigilance was lacking.
    When the Justice Department suddenly appeared to cave in to the 
tobacco industry or when a former big oil executive revised reports on 
global warming . . . it raised doubts in the minds of the American 
people. Our government must look out for the public interest--not 
special interests. That is certainly true in the case of the important 
positions we are considering today.
    We are being asked to confirm Mr. Peacock as a Deputy Administrator 
of the Environmental Protection Agency. His job would be to protect our 
environment--not the industry he used to represent. His nomination 
comes at a time when EPA scientists have expressed concerns about a new 
agency plan for risk assessments that will give more influence to 
special interests. When I had an opportunity to speak with Mr. Peacock 
a few weeks ago, I asked him to look into that situation. I'm still 
waiting to hear back from him.
    We are also being asked to confirm Mr. Nakayama as a top-ranking 
compliance official. His job would be to make sure that industry is 
complying with guidelines and regulations that are put in place to 
protect the American people. Before we can confirm him, he needs to 
assure us that his first allegiance would be to the public interest--
not special interests.
    I look forward to the opportunity to ask these nominees some 
questions about how they would approach the jobs for which they have 
been recommended. Once again Mr. Chairman, thank you for holding this 
hearing.

    Senator Inhofe. Thank you, Senator Lautenberg.
    Senator Boxer.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thanks, Mr. Chairman, very much for this 
opportunity.
    I have little chance to talk about the problems with the 
Superfund program, just because we haven't had hearings in many 
years, frankly. So this is an opportunity for me to focus in on 
that program. As we all know, the heart of EPA's mission is to 
protect the health of our citizens, including families, and I 
believe particularly young children. That is a moral 
responsibility. Of course these nominees, whom I welcome here 
this morning, will be entrusted with that important 
responsibility.
    As the ranking member for the Superfund and Waste 
Management Subcommittee, I want to focus my remarks this 
morning on the Superfund program and the kind of leadership 
that will be needed to effectively deal with the threats to the 
health and welfare of the 10 million children who live within 4 
miles of a Superfund site. Let's think about that: 10 million 
children who live within 4 miles of a Superfund site. We know 
which States have the most sites, California has almost 100 
sites. There are those on this committee who have even more 
sites.
    So we need to do much more than we are doing to protect 
from the threat posed by these sites.
    I want to illustrate the point, Mr. Chairman. This is 
important, your staff was there. In a recent staff briefing, my 
staff asked a senior representative of the Superfund program a 
question. In answering that question, he said, ``There are over 
100 sites where human exposure is not under control.'' There 
are over 100 sites where human exposure is not under control. 
In other words, where the children and the families are getting 
impacted with the poisons on those sites.
    Now, if you go up on EPA's web site, you will find that 
that is the case. One hundred and three Superfund sites, this 
is directly from their website, in 33 States, where human 
exposure is not under control. I would like to ask that this be 
included in the record, and I will share it with colleagues on 
both sides of the aisle, so you can see where your State fits 
into this.
    Senator Inhofe. Without objection.
    Senator Boxer. I will pass it along.
    What is very troubling is that EPA on this website says 
very little about the extent of the risks there. So I intend to 
ask this nominee about this disturbing fact, and for detailed 
information on these sites and the risks that they pose. I want 
to join with Senator Jeffords. For so long we have been trying 
to get information. We cannot get information. Whether you are 
a Republican or a Democrat, we should be able to get 
information.
    Now, if one of my colleagues on the other side gets this 
information, he may feel that one or two sites disturb him or 
her, and I may feel that 80 disturb me, that's not the 
question. We deserve to have this information. These are our 
children.
    I asked my staff to follow up on one particular site 
because it had gotten a lot of publicity. It happens to be in 
Nebraska. What we found, along with other information, shows 
that there are serious deficiencies in the Superfund program 
that need to be addressed by any future leader of that program.
    The Omaha lead site covers thousands of acres where tens of 
thousands of people live. Several hundred children have tested 
positive for the past several years for lead poisoning, some 
quite severe. CDC estimates the number as much higher.
    Much of the site affects residential areas, so many 
children are affected through their homes, schools and day 
care. The Washington Post ran a front page story at 
Thanksgiving on one of the young victims, and we will just show 
you a picture. Elam Jacob is 5 years old. He has suffered 
irreversible brain damage from extraordinarily high levels of 
lead exposure. This beautiful child.
    This site attracted enough attention that Members of 
Congress got involved. The Administrator paid a visit, and more 
money was announced. But the Superfund program does not have 
the funds to ensure that the worst yards in this site are 
addressed in less than 5 years. In the meantime, Elam's mother 
explains that the EPA has said the children should not play on 
windy days. I want to ask all of us here who are dads, moms, 
grandmas and grandpas, this is what they have to tell their 
children, don't play on windy days, and take your shoes off 
when you come inside and other kinds of things. It goes back to 
Senator Baucus' point, a simple thing of taking a child on your 
lap.
    This is what these families are putting up with because we 
haven't cleaned up the site. To me, to tell a child, don't play 
outside on a windy day, is simply not an option for what we 
should be doing.
    Mrs. Jacob has pleaded with EPA to test her yard for 
months, and they have not done it. Now Mrs. Jacob's youngest 
child has also tested positive for lead poisoning. Now they 
have two children with lead poisoning, and EPA says, sorry, 5 
years at the least until we can clean it up.
    So here's what we have. We have these sites----
    Senator Inhofe. Let me interrupt for just a minute. Are you 
about to wrap up? Because you have gone considerably over your 
time.
    Senator Boxer. I am, you will be happy to know.
    I will ask unanimous consent that the rest of my statement 
be placed in the record, and I will wrap up in 1 minute.
    Senator Inhofe. Without objection.
    Senator Boxer. I know it is hard to hear this. I don't like 
to talk about it, either. But that's what's happening at these 
sites. This isn't just on a piece of paper a list of sites. 
These are sites where children live very close to them. It's 
dangerous, and we cannot get the information.
    So to get to the point, Ms. Bodine, I think you can tell I 
am going to want information from you. I am going to want a 
pledge for the information. In the question period, I will ask 
specifically what I want and will get your commitment, I trust, 
to that information.
    Thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Boxer.
    Our votes have started, but we are going to go ahead and 
take 15 minutes now, and I would like to see if we couldn't 
possibly get through our opening statements. I would like to 
have all of you who have brought family here to begin by 
introducing your families, because they may not be able to 
return at 3 o'clock.
    Mr. Peacock.

 STATEMENT OF MARCUS PEACOCK, NOMINATED BY THE PRESIDENT TO BE 
   DEPUTY ADMINISTRATOR AT THE U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Peacock. Thank you very much, Mr. Chairman, Senator 
Jeffords, for scheduling this hearing today.
    I will go ahead and just briefly introduce my family that 
is here today. First of all, my wife, Donna McLean.
    Senator Inhofe. Please stand up.
    Mr. Peacock. She has a child on her lap. She may be 
familiar to some members of the committee. She was the Chief 
Financial Officer at the Department of Transportation for a 
number of years. She has brought my two 8-year-old daughters, 
Mey McLean and Iona McLean, who inexplicably decided to wear 
similar dresses today. I don't know how that happened.
    [Laughter.]
    Mr. Peacock. Also, from New York City, my sister, Felicity 
Fridman is visiting, and her son, Vladmir Fridman. Then from 
Rush Tower, MO, and I think while they are here the population 
of Rush Tower has been reduced by about 25 percent, my mother-
in-law, Carolyn McLean and father-in-law, Ray McLean.
    Then finally, from Chevy Chase, DC, I have my sister-in-
law, Robin Miles McLean, who is a former employee of EPA and 
now full-time mom. She has brought her workload with her today, 
Jacob Miles-McLean, Haley Miles-McLean, and finally, little 
Nate. I appreciate their support.
    Senator Inhofe. Your time has expired.
    [Laughter.]
    Mr. Peacock. It's all yours, Susan.
    Senator Inhofe. Please continue.
    Mr. Peacock. Mr. Chairman, Senator Jeffords and 
distinguished members of the committee, I am honored to appear 
before you today as the President's nominee for the position of 
Deputy Administrator of the Environmental Protection Agency. I 
am indebted to the President for his trust and the privilege of 
serving in this new capacity.
    There are three important things I would like you to know 
about me. They make up who I am and govern how I would conduct 
the job of Deputy Administrator, if confirmed. First, I am a 
first generation American. My parents emigrated from war-torn 
Europe with three suitcases, a couple of trunks and $200. They 
left their family and friends behind and took a great risk, not 
just for themselves, but for their children and their 
children's children. That is the greatest gift that I have ever 
received.
    I love this country and cherish the rights we enjoy, rights 
that give us the opportunity to realize our dreams. The first 
function of any government, in my opinion, is to protect and 
honor those rights.
    Second, I grew up in Minnesota, and Minnesota gave me two 
things. First, you can't grow up in Minnesota without 
developing an appreciation for the outdoors. Even when it's 20 
degrees below zero. Indeed, I was at winter camp when I first 
developed a great interest in the environment. I was about 15 
years old and laying out an orienteering course. I found myself 
in the middle of a frozen lake, while a fellow Boy Scout moved 
a marker along the shoreline.
    For some reason at that moment, the peacefulness and the 
serenity of that setting really connected with me. From that 
time on, my eyes were opened to a deeper interest in the wonder 
of nature. That started a lifelong interest in the natural 
world. It first drove me to an interest in science and then 
ultimately engineering. It's a fascination my wife and I now 
share with our children by going hiking, camping, canoeing and 
birdwatching.
    Minnesota also gave me a strong sense of community. Public 
service is a high calling in Minnesota. An adage etched on the 
old Minnesota Convention Center really struck home with me. It 
said, ``Participation in the rights of citizenship presumes 
participation in the duties of citizenship.'' My parents had 
helped me appreciate the rights of citizenship in the United 
States, but Minnesota helped me understand that those rights 
came with an obligation to the community and to the Nation.
    Finally, I am an engineer. I have not practiced engineering 
as a profession for many years. Nonetheless, I think I practice 
engineering every day. Because to me, the core of engineering 
is a disciplined process for problem solving. It requires one 
to be clear, open-minded and analytical. It focuses on getting 
results.
    As a manager and a budget officer, I have seen many 
different types of problems. Engineering has given me the 
skills to break them down into manageable pieces and work with 
others to come up with solutions that get results. I think 
that's exactly the kind of skill one needs to be a Deputy 
Administrator.
    Should I be confirmed, I would bring to EPA a strong sense 
of public service, a deep appreciation for the environment and 
an excellent set of problem-solving and management skills. 
Under the President's leadership, our country has made great 
strides in cleaning up our air, water and land in a way that 
allows our Nation to continue to grow and prosper. The air my 
children breathe today is much cleaner than when I was a kid, 
and our food and drinking water supplies are safer and our land 
is better protected.
    Building on this success, EPA Administrator Steve Johnson 
has laid out two challenges for the Agency. First, we must make 
sure we are using the best available science to make decisions. 
Second, we must formalize collaborative approaches to solving 
problems. On this second point, as has been said before, 
traditional methods of environmental protection do not work as 
well as in the past on our remaining environmental challenges. 
Collaborating with States and other partners to solve remaining 
environmental problems needs to become more routine. I look 
forward to helping the Administrator tackle those challenges.
    Mr. Chairman, if confirmed, I will do everything I can as 
Deputy Administrator to continue to serve the people of this 
great country, protecting their health and the health of the 
environment. I thank you very much and would be happy to answer 
any questions.
    Senator Inhofe. Thank you, Mr. Peacock, for that excellent 
opening statement.
    Ms. Bodine.

STATEMENT OF SUSAN P. BODINE, NOMINATED BY THE PRESIDENT TO BE 
 ASSISTANT ADMINISTRATOR, OFFICE OF SOLID WASTE AND EMERGENCY 
         RESPONSE, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Bodine. Thank you, Senator.
    First, let me introduce my family. I have with me today my 
husband, David Bodine, who is a research scientist at the 
National Institutes of Health, and my two sons, Christopher 
Bodine, he is 14 years old and about to enter high school in 
the fall, and then my second son Steven Bodine, who is 11 years 
old and about to enter middle school in the fall.
    Senator Inhofe. Thank you very much.
    Ms. Bodine. Mr. Chairman, Senator Jeffords, distinguished 
members of the committee, thank you for the privilege of 
appearing before you today as nominee for the position of 
Assistant Administrator for the Office of Solid Waste and 
Emergency Response. I am honored that President Bush, 
Administrator Johnson and this committee are considering me for 
this position.
    I have worked on environmental issues for my entire 17-year 
professional career, first as a practicing attorney and then as 
counsel to the Water Resources and Environment Subcommittee of 
the House Committee on Transportation and Infrastructure. In 
private practice, I learned the substance of our environmental 
laws, but I also learned from experience that the best way to 
approach a cleanup problem was from a technical and engineering 
perspective.
    In fact, I found that the best way to approach these issues 
was to get all the scientists and engineers in a room and find 
the most cost-effective way of cleaning up the site. That is 
the outcome that everybody wants to achieve.
    I also found it very rewarding to work with clients to keep 
them in compliance with the law. This was very challenging. 
Many of our environmental statutes are extremely complex and 
the regulations are even more so.
    When I moved to Capitol Hill to work on the staff of the 
House Transportation and Infrastructure Committee, I kept these 
same objectives and approach: focusing on an outcome, a clean 
environment, but also trying to ensure that the laws that are 
established to achieve this outcome are clear, understandable 
and workable.
    It has been my experience over 10\1/2\ years working in the 
House that even when an issue is contentious or complex, if you 
start by trying to identify your goal and agree on a common 
goal, then it's much more likely that you are going to find 
common ground on how to achieve that goal.
    As this committee knows, that was the process used to 
develop the Small Business Liability Relief and Brownfields 
Revitalization Act, which was the subject of several years of 
work and became law in January 2002. To reach agreement on the 
first title of that Act, environmental and business groups had 
to agree that holding small business owners liable for 
municipal solid waste was not going to facilitate cleanups.
    To reach agreement on title II of that Act, which is the 
Brownfields Revitalization title, municipal groups, developers 
and environmental groups all had to agree that stimulating 
brownfields development was a goal that everyone wanted to 
achieve. The method to achieve that goal was changing Superfund 
liability, to address the issue of prospective purchaser 
liability. But by focusing on the goal, the groups achieved 
consensus that changing liability was acceptable.
    If confirmed by the Senate, I would like to take the same 
consensus-building approach to my new duties in the Office of 
Solid Waste and Emergency Response. I know that we all share 
the goal of protecting the environment. I know that we share 
the goal of seeing hazardous waste sites cleaned up more 
quickly, and I know we share the goal of making environmental 
regulations clear, understandable, and implementable.
    If confirmed by the Senate, I would work with all of you on 
a bipartisan basis to find sustainable solutions to achieve 
these goals. American citizens expect and deserve a thriving 
economy and a clean, safe and secure environment.
    I am going to submit the rest of my statement for the 
record, and let me just say in closing, I look forward to any 
questions you and your colleagues may have. Thank you very 
much.
    Senator Inhofe. Thank you.
    Mr. Nakayama, if you would prefer to withhold your opening 
statement until we have more here, it seems like some of those 
who are making some of the accusations are off voting now. 
Would you prefer to do that?
    Mr. Nakayama. That would be fine.
    Senator Inhofe. All right, then what we will do is go ahead 
and recess until 3 o'clock. Do you have any family here to 
introduce?
    Mr. Nakayama. Yes, I do.
    Senator Inhofe. Why don't you go ahead and do that, so they 
won't have to come back.
    Mr. Nakayama. Thank you, Senator.
    Mr. Chairman, my wife Larrene is here today and my daughter 
Meredith, who will be entering seventh grade, is here also.
    Senator Inhofe. That's great. It's nice to have both of you 
here.
    We will go ahead and do that. You will be on first thing at 
3 o'clock for your opening statement, then we will have our 
rounds of questioning take place.
    Thank you very much. We are in recess.
    [Recess.]
    Senator Inhofe. The meeting will come to order.
    When we left last time, Mr. Nakayama had not had a chance 
to make his opening statement. We will recognize you for that 
purpose now.

STATEMENT OF GRANTA Y. NAKAYAMA, NOMINATED BY THE PRESIDENT TO 
    BE ASSISTANT ADMINISTRATOR, ENFORCEMENT AND COMPLIANCE 
        ASSURANCE, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Nakayama. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Jeffords, distinguished members of 
the committee, it is an honor and a pleasure to appear before 
you this afternoon as the nominee to be EPA's Assistant 
Administrator for the Office of Enforcement and Compliance 
Assurance.
    I am honored that President Bush and Administrator Johnson 
have invited me to join the Administration to improve public 
health and the environment in this great Nation. EPA has an 
important responsibility to protect the land, air and water of 
our Nation. From the Agency's inception, compliance and 
enforcement have been an important cornerstone of EPA's 
programs to improve public health and the environment.
    Vigorous enforcement is a crucial tool that ensures the 
promise of our environmental statutes becomes an environmental 
reality. Administrator Johnson has expressed his commitment to 
a strong Federal enforcement program, and it is incumbent upon 
any nominee for this position to share that commitment.
    Just as Americans must be able to trust and rely on EPA to 
protect the land, air and water, the Agency is committed to 
obtaining the support of citizens and communities throughout 
our country in protecting the environment. If confirmed, it 
will be my goal to work collaboratively to ensure that citizens 
can both more easily assist EPA in identifying potential 
environmental enforcement issues and can more easily receive 
assistance in complying with environmental regulations. The 
goal is to make a more ``user-friendly'' and efficient 
enforcement organization.
    To this end, my prior experiences have provided me with 
some unique preparation for this position. The Assistant 
Administrator for Enforcement and Compliance Assurance must 
have an understanding of environmental law. I am currently a 
partner at Kirkland and Ellis in the environmental and product 
safety practice area. I joined the firm in 1994 after attending 
law school in the evening and graduating as the valedictorian. 
The first case I worked on as an attorney was an environmental 
enforcement matter brought by EPA's enforcement staff, and I 
have worked on similar matters ever since.
    Today, my practice includes advising clients on a daily 
basis regarding their responsibilities in complying with our 
Nation's numerous environmental statutes. Since 1998, I have 
also served as an Adjunct Professor of Law at the George Mason 
University School of Law, where I currently teach Environmental 
Regulation. Practicing and teaching environmental law has 
provided an appreciation of the challenges of understanding, 
complying with, and enforcing these complex statutes.
    Second, the nominee must be able to manage a large 
organization within the unique structure of the Federal 
Government. I started my career in the military, in the U.S. 
Navy. After being selected by Admiral Rickover and serving for 
5 years as an officer in the Navy Nuclear Propulsion Program, I 
then served for 8 years as a civilian manager reporting to 
Admiral Rickover's successors. In that program, I oversaw the 
manufacture of the prototype reactor for the Seawolf submarine, 
the SSN-21.
    Later, I was a manager with responsibility for welding, 
non-destructive testing, and quality assurance. During this 
formative period, I observed first-hand the high standards and 
dedication of the individuals who served in the Naval Nuclear 
Propulsion Program, and the results that could be achieved by a 
group of highly motivated Federal employees.
    Last, I have found that technical training and the ability 
to process technical information can provide additional 
insights into the practice of environmental law. My educational 
background, including Bachelor and Master of Science degrees 
from MIT in Nuclear Engineering, combined with my prior 
experience as a practicing nuclear engineer, has provided a 
strong technical background. In my experience, a first-hand 
understanding of the technology and science at issue in the 
environmental area inevitably leads to a deeper and more 
realistic appreciation of the problems and challenges faced by 
both regulators and the regulated community.
    EPA is most fortunate to have a very dedicated, extremely 
capable staff in the enforcement and compliance assurance 
office. I have personally worked with many of them over the 
last decade and I have been uniformly impressed by their 
dedication and professionalism. They work extremely hard 
because they care about the environmental health of the Nation. 
As enforcers of the environmental laws, they must also adhere 
to the highest ethical standards. It is a group that any 
environmental attorney or engineer would be proud to join.
    If you should honor me by confirming my nomination, I look 
forward to working with the members and staff of this 
distinguished committee, Administrator Johnson, and President 
Bush to make the environment better for all Americans. Thank 
you for the opportunity to appear before you today. I will be 
happy to answer any questions.
    Senator Inhofe. Thank you very much, Mr. Nakayama.
    First of all, in my opening statement, and I am sure you 
were aware of it before this hearing, we talked about Tar 
Creek, the most devastating Superfund site in America. For 25 
years, they poured money on the problem, they tried different 
things, nothing seemed to work. They were trying to get people 
to move out, without correcting the problem. We had to remind 
them, it's going to have to be corrected anyway.
    When I became chairman, I felt that if an effort can be 
done, it should be done during my chairmanship. If I didn't do 
it, I would be quite embarrassed.
    I found that the major problem that we had at that time was 
the various bureaucracies not working with each other. We had 
the Bureau of Indian Affairs, we had the Department of 
Interior, we had the Corps of Engineers, we had the EPW, all of 
them that wouldn't get in the same room together. Since that 
time, we have changed that. They have come together, we now 
have a plan, and it is working with all of the Federal 
agencies, as well as the State of Oklahoma DEQ. The University 
of Oklahoma is the lead Agency, the contractor. We are actually 
making headway in getting it done.
    This is mainly because it enjoyed the top priority of the 
EPA and at that time the previous chairman, Mike Leavitt. So I 
guess I want to ask each one of you, if I have every bit the 
commitment from you that we had from Mike Leavitt and that we 
are going to be getting from Steven Johnson? I'll start with 
you, Mr. Nakayama.
    Mr. Nakayama. Thank you, Mr. Chairman. You have my 
commitment. I understand that the Tar Creek site is a very 
important priority for the Agency, appropriately so. Thanks to 
your efforts, we have made tremendous progress, the Agency has 
made tremendous progress, and I look forward to working with 
you and the committee to continue that progress. I understand 
Region VI has recently submitted a claim for over $100 million 
for cleanup costs and that work is proceeding, and it is 
proceeding at a rapid pace.
    Senator Inhofe. It is.
    Mr. Peacock. Yes, Mr. Chairman, actually it is a good 
example of the sorts of sites that we are left with in the 
Superfund program. They are particularly difficult and complex 
and require a lot more effort than the smaller sites that we 
had in the past. I would be interested in perhaps visiting Tar 
Creek, it seems a good idea, getting to know it much better.
    Senator Inhofe. Yes, it is one of those things where you 
almost have to be there. I know that Administrator Leavitt was 
quite surprised, after reading all the staff reports and seeing 
the pictures, actually going there. It is different.
    Ms. Bodine.
    Ms. Bodine. Senator, it is my understanding that this is a 
very high risk site. I believe that Superfund sites should be 
prioritized based on risk, and that would put this site very 
much near the top.
    Regarding your issue on the interagency relationships, I 
agree that is critical, especially at a site like Tar Creek. If 
confirmed, I will certainly make sure that EPA is working 
collaboratively with the other agencies.
    Senator Inhofe. I really believe that at least the two of 
you have demonstrated clearly you can work with other agencies 
and break down those barriers, so I appreciate your response 
very much.
    Mr. Nakayama, there were some charges fired at you during 
the first session that we had today about your association with 
the W.R. Grace Company. I would like to have you take all the 
time you need to respond to those charges. Would you like to do 
that?
    Mr. Nakayama. I certainly would, Mr. Chairman.
    Senator Inhofe. I guess the first question I would ask is, 
did you ever have any direct involvement or relationship with 
W.R. Grace personally?
    Mr. Nakayama. Thank you for the opportunity to respond, Mr. 
Chairman. I have had no involvement with the Libby, MT matter 
involving W.R. Grace, direct or indirectly. Second, I have 
never worked on any legal matter involving W.R. Grace. I have 
never represented W.R. Grace in any of my practice.
    So frankly, I am a little bit puzzled by the attention, but 
certainly understand people's concerns.
    Let me also say that with respect to serving, if I am 
confirmed as the Assistant Administrator, I would recuse myself 
from any mater involving W.R. Grace. So I would have had no 
involvement in my private practice prior to joining the Agency, 
and anticipate no involvement if I am confirmed and serving as 
the Assistant Administrator.
    Senator Inhofe. At Kirkland and Ellis, how many attorneys 
are there? You have accountants, too, I guess.
    Mr. Nakayama. It is a very large firm. I am not sure of the 
exact number, I believe it is in excess of 700 attorneys. So it 
is quite a number, with thousands of cases.
    Senator Inhofe. In something that large, are they broken 
down into specialties? I would assume they would be.
    Mr. Nakayama. Yes. Attorneys in a large firm typically work 
in a practice area or group. The particular groups that were 
handling the W.R. Grace matter, it's my understanding, they are 
certainly not in the group that I work in. I work the 
environmental and consumer product safety practice.
    But the people who are working on the W.R. Grace matter, 
frankly, I don't even know the attorneys. I don't know who is 
working on it. But I know I have never discussed the case with 
anybody at the firm. All I know about the case and the matter 
is what Senator Baucus relayed in my meetings with him what I 
have read and in the press.
    Senator Inhofe. After having the experience dealing with 
and working with 100 U.S. Senators, that is difficult enough. I 
would imagine that it would be awfully difficult to know what 
the other 699 attorneys are doing in a firm.
    Senator Jeffords.
    Senator Jeffords. Mr. Peacock?
    Mr. Peacock. Yes, Senator.
    Senator Jeffords. The President has finally acknowledged at 
the G8 meeting what the world's best climate scientists have 
known for more than a decade: man-made greenhouse gases are 
contributing to and accelerating the global warming. Your 
opinion, as contained in the infamous memo of March 8, 2001, 
that you co-authored, recommended that, ``It would be premature 
at this time for the President to propose any specific policy 
approach aimed at addressing global warming.''
    That memo rationalized and attempted to justify the 
President's reversal of his campaign pledge to control carbon 
dioxide from power plants. Just 2 days later, the President 
also withdrew from Kyoto, and since that has not attempted any 
serious domestic or international effort to achieve real 
reductions in total U.S. and global greenhouse gas emissions.
    Given the President's most recent acknowledgement, what 
would be the most appropriate message on carbon constraints or 
a similar price signal for the Federal Government to send to 
the market to actually achieve real near-term reductions in 
greenhouse gas emissions?
    Mr. Peacock. Thank you for the question, Senator. I just 
want to make it clear, both the President and myself take this 
as a very serious matter, not just from a public policy 
perspective, but I have two 8-year-old kids, so the world we're 
headed into is one of interest and concern.
    The President has felt for some time that there was a man-
made contribution to greenhouse gases and then also to 
increases in temperature. That's why in February 2002, the 
President set out an aggressive target of reducing greenhouse 
gas intensity from 22 percent to 18 percent by 2012.
    That is a reduction of about 500 million metric tons of 
greenhouses gases than would have otherwise been released by 
2012. He has since laid out an aggressive program, both in the 
short term and in the long term and in the science, in order to 
get a better handle on climate change.
    I would like to address the memorandum which you mentioned 
from 2001, which I co-authored. At that time, the President was 
asked by a number of Senators to clarify what they saw as 
possibly contradictory statements during the campaign year. 
There was a written statement which indicated that the 
President supported mandatory controls on carbon dioxide from 
power plants. They felt that some verbal statements had been 
made during the campaign that conflicted with that.
    So they asked for clarification. The President, as he does 
in similar situations, asked for advice from his senior policy 
advisors. One of those advisors was the Director of the 
Domestic Policy Council at the time, John Bridgeland. He 
collected six of us together, I think they were all White House 
staff at the time. What he tasked us with doing was to lay out, 
first of all, what was the written statement from the campaign 
regarding carbon dioxide emissions from power plants and what 
would any reasonable person interpret from that written 
commitment.
    Then--this is the important part--assuming the President 
did not support mandatory controls on carbon dioxide emissions, 
which he subsequently clarified he did not, how should the 
written commitment be characterized, and then how should that 
be translated to the public. In fact, he confirmed, as he said 
later on that week, I believe, that he did not support 
mandatory carbon dioxide controls on power plants.
    He has subsequently supported, at least in the short term, 
strong voluntary measures. In fact, some of the programs on 
voluntary measures are at EPA, such as the Climate Leaders 
Program, which includes 62 large companies from Mack Truck to 
Miller Brewing Company that are making specific commitments to 
reducing greenhouse gases.
    It also includes an important component, which the G8 
noted, which is technology transfer to other countries to 
reduce greenhouse gas emissions. The Methane to Markets 
proposal that the President had in the last budget is a good 
example of that. There are longer term measures, such as the 
Hydrogen Fuel Initiative and Clean Coal Initiative.
    Then there is the science program. We are now spending 
about $2 billion on climate science. That is far more than any 
other country in the world. We are focusing that on the 
priority questions regarding climate science, to get a better 
sense of how much humans may be contributing to changes in 
climate, since that still is a difficult question to answer.
    Senator Jeffords. In fact, you have been handling 
environmental matters and regulations in the Administration for 
some time now. So you obviously have a wealth of policy 
experience to draw from. What do you consider to be the top 
five involuntary risks to the environmental health faced by the 
American public?
    Mr. Peacock. I'm sorry, Senator, the top five voluntary 
risks?
    Senator Jeffords. Involuntary risks----
    Mr. Peacock. Involuntary risks.
    Senator Jeffords [continuing]. To the environmental health 
faced by the American public.
    Mr. Peacock. That is a good question. I am trying to 
remember back. The Science Advisory Board, for instance, 
although it was some time ago, tried to rank the risks to the 
American public. I think they ranked the top 10 risks. One of 
them was indoor air pollution. That probably is still 
relatively high on the list, at least for those people who may 
be in a home where someone is smoking.
    I personally think, although it is not a health issue, 
invasive species, in an ecosystem, can cause dramatic changes, 
which can then possibly affect human health.
    What I would like to do is perhaps get back to you in 
writing on the other four, particularly after I refresh my 
memory from the Science Advisory Board studies including any 
that may have been done recently.
    [The response referred to follows:]

    The American public deserves to have a clean, safe, and healthy 
environment. Our nation faces numerous environmental challenges today. 
However, it is difficult to rank them by level of risk. Environmental 
challenges, such as particulate matter, ground-level ozone, and 
homeland security threats, among others, are all very important. I 
believe we must continue to use sound science to establish priorities 
and to improve the ability to measure our environmental progress.

    Senator Jeffords. I would appreciate that, thank you.
    Senator Inhofe. Thank you, Senator Jeffords.
    Before going to Senator Lautenberg, I just want to, for 
clarification purposes in this record, I want to get the G8 
language, which is identically the language that the President 
had in 2002.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    I just wanted to clear up, without any intonation or bias, 
Mr. Nakayama, did I understand that you never represented Grace 
directly? Is that what you said?
    Mr. Nakayama. Yes, Senator, I have never represented W.R. 
Grace.
    Senator Lautenberg. There was no implication in my 
question. I just wanted an understanding.
    Mr. Peacock, I don't know whether you took your lead from 
the Chairman of this committee, the distinguished Chairman, 
when you talked about most of the bad air comes from indoor 
pollution, indoor air pollution. I didn't know whether you were 
talking about the U.S. Senate or in general.
    [Laughter.]
    Senator Lautenberg. It is nice to see all three of you 
here. I speak for myself, I am concerned about the transition 
from previous positions and attitudes.
    I want to ask you, Ms. Bodine, I know you went to school in 
New Jersey, and we're very proud of that institution. It 
doesn't represent fully all of New Jersey, as you know, looking 
at it from the Princeton view. We love Princeton and we know 
that there are very smart people who go to school there.
    The Superfund program is of special importance to my State. 
We have, I won't say we have a monopoly, because we hear that 
beautiful States like Montana have Superfund problems, so it 
goes across the country. But we have 113 Superfund sites in 
that little State. Many of them are underfunded. I would ask 
you, are you familiar, do you know the amount of money that is 
being allocated to Superfund cleanup or directed toward 
Superfund cleanup?
    Ms. Bodine. Are you asking me what the President's request 
is for Superfund in 2006?
    Senator Lautenberg. No, not the President's request, the 
President's availability of funds for Superfund cleanup.
    Ms. Bodine. It would be the, well, I have that, it would 
have been the appropriations for 2005, in terms of response 
actions--I don't have the exact number. I apologize.
    Senator Lautenberg. OK. Is there enough there, to your 
knowledge, to effect a prompt cleanup of the sites that are 
listed on the NPL list?
    Ms. Bodine. I don't have an answer to your question, 
because I don't have the information. But we do know that not 
all the sites are cleaned up, so I guess the answer is simply, 
no, there isn't enough funding to clean up every single site. 
Although at each individual site, the funding needs depend on 
what stage the site is in the process. Whether or not a site 
can use money in a particular year depends on a number of 
factors, including status of enforcement against the PRPs, 
because, of course, EPA has an enforcement first policy. We 
want to spend PRP money before we spend trust fund money.
    Another factor is, of course, the stage of the remedy 
selection, to make sure that all the paper decisions have been 
made and all the risks have been evaluated.
    There are various studies by Resources for the Future and 
others about the billions of dollars it is going to take to 
complete action on Superfund sites nationwide. But for an 
individual year, I don't have that information.
    Senator Lautenberg. Have you had a chance to look at the 
pace of cleanup going back a few years, and currently?
    Ms. Bodine. Are you speaking about construction 
completions?
    Senator Lautenberg. Yes.
    Ms. Bodine. Construction completions, I have looked at 
that, yes. There are not as many construction completions in 
the last couple of years as there had been in the 1990's.
    Senator Lautenberg. Or underway?
    Ms. Bodine. Or underway, well, no, a lot of things are 
underway. A lot of them have reached the construction 
completion stage.
    Senator Lautenberg. It just depends on how far the progress 
has been.
    Ms. Bodine. Right. On that issue of construction 
completions, I have looked at the data on that. Concerns have 
been expressed that the Superfund program is very, responsive 
to what data is requested, what information is tracked. There 
has been a heavy emphasis on construction completions for a 
long time.
    Earlier, there was concern that this emphasis may have been 
to the detriment, perhaps, of prioritizing sites based on the 
risk. Because, if you look at the data on construction 
completions in the 1990's, you will see an enormous number of 
construction completions, but the actual amount of Federal 
dollars at each site is, in the vast majority of cases, less 
than $5 million. I know that again in the 1990's----
    Senator Lautenberg. I don't want to hold my place too long 
here. The Chairman has been about as patient as we find him.
    But New Jersey has a number of, 37 orphaned sites. I ask 
you this question, and that is, have you looked at the 
Superfund tax as it used to be and see what it did to 
accelerate and protect the areas where these sites exist, these 
Superfund sites? I just wonder what you think about it, should 
we look to raise money for these orphaned sites? We don't have 
enough to take care of them, do you think?
    Ms. Bodine. When Congress enacted the Superfund taxes, it 
enacted them to go into the Superfund Trust Fund, but it set up 
a mechanism where the trust fund that is part of the unified 
Federal budget which means that in terms of the funding, the 
money has to be appropriated out of the Trust Fund, it is not 
dedicated funding. The funding that is appropriated out of the 
trust fund has to compete within the overall budget and all the 
overall priorities.
    So if you look at the level of funding that was in the 
Trust Fund and you look at the appropriations, there isn't 
actually a relationship. The Trust Fund reached a height of 
about $3.8 billion in 1998. Even then, the amount of 
appropriations out of the Trust Fund was still flat.
    Senator Lautenberg. We'll have to discuss it at another 
moment. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Lautenberg.
    Senator Baucus, and you will have an extra minute.
    Senator Baucus. That's fine, I appreciate that, Mr. 
Chairman.
    Mr. Nakayama, the question about your involvement with 
Kirkland, with Grace, what do you know about your firm's 
involvement with W.R. Grace?
    Mr. Nakayama. I know that my firm represents W.R. Grace in 
the bankruptcy matter. I understand that my firm represents 
some Grace executives in the criminal indictment matter. That's 
my understanding. I don't have personal knowledge, I just know 
that from reading press reports.
    Senator Baucus. That gets to my second question, and that 
is, your knowledge is based upon, only upon reading press 
reports? You have no internal knowledge, that is, no knowledge 
other than press reports?
    Mr. Nakayama. No knowledge other than press reports, that's 
correct.
    Senator Baucus. What's your firm's policy with respect to 
clients? In most law firms, when a partner represents a client, 
the entire firm represents the client, not just the lawyer, the 
entire firm. That's the basic rule of thumb in law firms today. 
Is that the Kirkland policy?
    Mr. Nakayama. I really don't know what the Kirkland policy 
is with respect to what our agreements are with respect to the 
client, if it is a representation on behalf of the whole firm 
or whether it is with respect to a portion of the firm.
    Senator Baucus. Well, what's the understanding within the 
firm, generally? For example, if you represent a client, is it 
an understanding or common knowledge that it is expected the 
firm also represents the client, in addition to you?
    Mr. Nakayama. Maybe I'm not understanding the question, 
Senator. I represent clients, they are my clients and I work 
for them and I am a member of Kirkland and Ellis, LLP.
    Senator Baucus. Right. But do you consult with other 
members of your firm, ever, about an issue when you are 
representing your clients?
    Mr. Nakayama. I will consult, typically, with people in my 
practice group, yes.
    Senator Baucus. Therefore, in a sense, at least that 
practice group itself, in addition to you, represents that 
client?
    Mr. Nakayama. In that sense, yes.
    Senator Baucus. Again the common rule is that the entire 
firm represents that client, in addition to the partner? Isn't 
that the understanding within your firm, too, the general rule? 
Different firms operate differently. Some the entire firm does, 
some have special practice groups that try and wall off 
different sections and so forth. I'm just trying to find out 
what the Kirkland practice is.
    Mr. Nakayama. I know it sounds a little bit unusual, but I 
just haven't looked at that, Senator. I don't know what our 
policy is with respect to when we represent a client. I have 
not looked at that policy, frankly.
    Senator Baucus. You don't know?
    Mr. Nakayama. No, I don't.
    Senator Baucus. Doesn't that sound a little unusual?
    Mr. Nakayama. It may. It's a fact. I just haven't looked at 
it. Our firm is a large firm with hundreds of attorneys. I have 
not looked in fact at every policy of our firm, frankly.
    Senator Baucus. Well, wouldn't that be a big question, 
because you may potentially be in a conflict of interest when 
you talk about a prospective client, if that firm, your firm, 
Kirkland, may be representing the other side in some other way? 
Maybe in a civil matter. Isn't that possible?
    Mr. Nakayama. It is possible, Senator, certainly.
    Senator Baucus. So you don't check to see?
    Mr. Nakayama. We do check.
    Senator Baucus. To see whether there is someone else, some 
other lawyer with a client in the firm, that's representing 
another client that may present a potential conflict or an 
appearance of a conflict?
    Mr. Nakayama. Yes, we do check. We have a computerized 
system, and if you want to represent a new client to the firm, 
you have to submit the new client to a data base and the data 
base checks to make sure that client is not adverse to any 
other client.
    Senator Baucus. So what happens if hypothetically a partner 
in your firm is thinking about representing Client X, and then 
submits the information in their computer system to see if 
there is a conflict, would you know about that submission?
    Mr. Nakayama. Would I know about that submission? I----
    Senator Baucus. Customarily would other partners in that 
firm know about that submission, that submission of that nature 
or request of that nature?
    Mr. Nakayama. Typically there would be a list, I imagine, 
that comes around periodically, you would look at if--it is 
incumbent upon the person introducing a new matter to contact 
any attorney that they thought there might be a conflict that 
is identified out of that system.
    Senator Baucus. So in this case, when the firm represented 
W.R. Grace, well, let me ask this question, do you know when 
Kirkland took on W.R. Grace as a client?
    Mr. Nakayama. No, I don't.
    Senator Baucus. When you read about this in the press, did 
you go back and check?
    Mr. Nakayama. No, I didn't go back and check, no.
    Senator Baucus. Wasn't it a concern to you?
    Mr. Nakayama. The firm represents hundreds of clients. I 
would be checking every day with respect to particular clients. 
There are news articles about our clients and our cases every 
day in the news.
    Senator Baucus. I'm sorry?
    Mr. Nakayama. There are articles and press reports about 
the clients, our clients and the firm every day. But I don't 
typically check to see when they became clients.
    Senator Baucus. What I'm getting at is once your name was, 
somebody approached you for this job, maybe did you go back and 
look at your client list and say, gee, maybe there's a conflict 
here, maybe there's a problem here, some enforcement actions 
before the EPA? Did you do that?
    Mr. Nakayama. I literally--I guess when you say did I check 
my client list?
    Senator Baucus. Did you go back and say, gee, I have some 
clients here that present a problem here, a conflict?
    Mr. Nakayama. I looked at my----
    Senator Baucus. I might have to recuse myself?
    Mr. Nakayama. Yes, I did look at my personal clients, the 
clients that I have done work for, to see if there was a 
problem.
    Senator Baucus. Did you look at Kirkland's clients?
    Mr. Nakayama. No.
    Senator Baucus. So in this case, if EPA begins an 
enforcement action, is involved in an enforcement with W.R. 
Grace, what's your position?
    Mr. Nakayama. I'm going to recuse myself from that matter.
    Senator Baucus. What about other cases where Kirkland has 
represented other clients that come before the EPA?
    Mr. Nakayama. What I've done, Senator, is I have submitted 
my financial disclosure form that explains and lists my 
clients. I have also submitted an ethics agreement to the 
Office of Government Ethics that was reviewed by the top ethics 
officer at the Agency, as well as the Office of Government 
Ethics. That has been reviewed and approved by the Office of 
Government Ethics.
    Senator Baucus. As a partner in the firm, do you have any 
input as to which clients the firm represents? Is that totally 
up to each partner?
    Mr. Nakayama. I have input with respect to clients I bring 
to the firm. Unless there is a conflict or unless there is some 
issue that directly involves my clients, I typically, no, do 
not get involved with respect to other partners and their 
clients.
    Senator Baucus. Do you share the income that the firm 
receives in charging W.R. Grace? As a partner, do you get some 
of that income?
    Mr. Nakayama. As an employee of Kirkland and Ellis----
    Senator Baucus. Sorry?
    Mr. Nakayama. As an employee of Kirkland and Ellis, as a 
partner, we all received income from the firm as a whole.
    Senator Baucus. Including income from W.R. Grace?
    Mr. Nakayama. Income from any client.
    Senator Baucus. So that goes back to my first question, in 
a sense, you're really all together as a company, as a team. So 
that is, you represent Grace, in a sense the whole firm does, 
and vice versa. That makes sense, because you said that you 
would recuse yourself in any action before W.R. Grace.
    I'm just curious, can you explain the difference between 
chrysotile and tremolite?
    Mr. Nakayama. I understand they are different types of 
asbestos.
    Senator Baucus. You heard me this morning talk about 
tremolite, that difference.
    Could you tell the committee a little bit about your views 
on why you praised the decision by the Fifth Circuit Court of 
Appeals to overturn the EPA's ban on asbestos?
    Mr. Nakayama. Yes, I certainly could. That was a law review 
article I wrote----
    Senator Baucus. Right, right.
    Mr. Nakayama [continuing]. I wrote that for the George 
Mason Independent Law Review back in I believe 1991. It was a 
decision of the Fifth Circuit called Corrosion Proof Fittings 
v. EPA. The Court held that a straight, across-the-board ban on 
asbestos, across all uses, couldn't be promulgated under the 
Toxic Substances Control Act, TSCA.
    Senator Inhofe. The Senator's time----
    Senator Baucus. I'm sorry, I'll be finished. Thank you, 
Chairman. I'll be finished. I appreciate the committee's 
indulgence here.
    I only ask the question because most industrialized nations 
have banned all uses of asbestos. This is a question, and I 
will pretty much end up here. What is your sense of your duty 
as a person, this is pretty abstract, bear with me for a while, 
on this earth? I believe that we must, all of us have a moral 
obligation to leave this place in at least as good a shape or 
perhaps better shape than we found it, from an environmental 
perspective. Because we are just here for a short while on this 
earth. We have kids, grandkids. What's your view about that?
    Mr. Nakayama. I agree with you, Senator. I have a daughter 
who was here this morning, and I think all of us want to leave 
the planet in better shape for our children. We are here for a 
short time.
    Senator Baucus. What can you say to this committee right 
now to assure us that you are going to vigorously enforce the 
laws as the chief enforcement person at EPA?
    Mr. Nakayama. Let me say this. I have approached every job 
I have ever held very seriously. I think you can see that from 
my record. I have a record of achievement, and I would approach 
this job just as seriously.
    If any company, individual, other Government Agency, 
believes that my nomination somehow lessens their 
responsibilities under the environmental laws and regulations 
of this country, they are sadly mistaken. They are making a 
serious mistake, and they make that mistake at their peril. I 
will vigorously enforce the environmental laws and regulations 
of this country. That is the job of the person who sits as the 
Assistant Administrator for the Office of Enforcement and 
Compliance Assurance.
    I look forward to working with you, if confirmed, you and 
your staff, the committee, as we look forward and work together 
to achieve that goal.
    Senator Baucus. Well, thank you, and I appreciate that. 
Thank you very much. Thank you, Chairman.
    Senator Inhofe. Thank you, Senator Baucus.
    Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman.
    I want to continue with the questions, Ms. Bodine, on the 
Superfund program. By the way, I share the concerns of my 
colleagues and everything they have discussed. I want them to 
know that I am with them on all of their concerns.
    Right now I am the ranking member on the Superfund 
Subcommittee. As I said, we have not had a hearing in a very 
long time. So I need to, instead of having hearings, since we 
don't seem to be able to do that, to get information from EPA.
    Now, from your web site, as I said this morning, we have a 
list of 103 Superfund sites in 33 States where human exposure 
is not under control. There are 1,200 Superfund sites, give or 
take. So there are 103 where people are getting exposed, right 
now, as we sit here.
    I need to know this, I need to see this list in the order 
of the most dangerous going down the list. They are all 
dangerous, everybody is getting exposures who lives near these 
sites, especially the children. But I need to have that list.
    So far, I do not have that comprehensive list. We do know 
on your web site you list the actual sites, you name them. But 
this is not in order of most dangerous.
    So I need to know that you will cooperate with me and we 
can get this. Now, Senator Jeffords and I have been trying to 
get this list for a very long time. Everything we get is just 
bits and pieces. We never get answers, clear, simple, 
straightforward answers, you know, these are the 10 most 
dangerous sites. I am asking you today if you will work with me 
before your confirmation vote to get this list from the EPA.
    Ms. Bodine. Thank you, Senator. I don't currently work at 
the EPA, so I don't control the documents they are producing. 
As you know, I currently work for the U.S. House of 
Representatives, for a committee that also has oversight over 
the Superfund program. So I must say that I have an 
understanding of the importance of congressional oversight and 
I have a bias in favor of sharing information.
    If I am confirmed, I am going to have to respect the 
concerns and certainly the protections that are necessary for 
my colleagues, including colleagues at the Office of 
Enforcement and Compliance Assistance with respect to things 
that are confidential, because of enforcement-sensitive 
information. Then if I am confirmed, I am also going to have to 
respect whatever protocols, I am not familiar with them, but 
whatever protocols have been set up by the executive branch to 
protect information that is pre-decisional.
    Let me say that I am told that those protocols have not 
changed from Administration to Administration, but again, I 
cannot tell you what they are, because I am not familiar with 
them.
    But within those parameters, yes, I want to work with you, 
I want to work with your staff on getting answers to your 
questions. The list that you are talking about from EPA's web 
site, I have not gone and looked at that exact list.
    Earlier I had seen a report that talked about sites that 
were not in control. I was concerned and I called the Agency 
myself and asked, well, what does this mean. I was told that 
that was, that the sites were sites where there was current or 
potential exposure. My concern was that there were any sites at 
all where there was actual ongoing exposure, which is the 
concern I hear you expressing. I was told that no, they are 
not, what we are talking about here is potential exposure.
    But I agree with you completely, Senator, that if there are 
sites out there with current, ongoing exposures, those are the 
sites that need to be a top priority, the top priority. Those 
sites need to be the ones that are addressed first. Again, when 
you are talking about actual, current exposure----
    Senator Boxer. I know my Chairman is not going to give me 
extra time----
    Senator Inhofe. If you would like to take both your rounds 
at once, you may do that.
    Senator Boxer. Thank you. Well, go ahead, then, I thought I 
only had 5 minutes. Go ahead.
    Ms. Bodine. Let me just repeat that in reaching that goal 
of making sure that the priority is based on risk and that 
first and foremost, if there is actual exposure at the site and 
people are currently exposed, that has to be at the top of the 
list.
    Senator Boxer. OK. We need to see that list. Where is there 
actual exposure?
    I was talking to my colleague, Senator Obama. He has a lot 
of sites there--how many do you have?
    Senator Obama. Eleven.
    Senator Boxer. He has 11 sites that are titled Superfund 
Sites Where Human Exposure is Not Under Control. Now, that is 
the English language and I understand it. I don't think it 
needs any--I don't think you and I should listen to the 
bureaucrats explain it away.
    It's clearly a problem. Because, sure, on a day that the 
wind doesn't blow, it's under control. But the next day the 
wind blows, it's not under control. So we have, and in my 
State, I have, I believe it is six sites where human exposure 
is not under control.
    So I appreciate your spirit and spunk on the point, and the 
fact that you're not at the EPA. But your caveat is a very big 
caveat. Because they are always going to give us reasons not to 
answer our questions.
    I would like to state for the record that our questions 
aren't answered. We get bits and pieces of information.
    Now, what I need to know from you and what I need to know 
from EPA, and you can't answer this question, but what I am 
going to try to get from EPA is what stage of cleanup are we in 
for each of these 103 sites. What sites, in particular, have 
that threat right now to the point where there is an immediate 
threat to children, let's say. How many children live within 4 
miles of these sites, and how much will it cost to clean up 
these sites.
    Now, you're right, the legal department always gives 
instruction, we can't say this, because if we say this then the 
people at the bottom of the list won't cleanup their site and 
all this stuff. The bottom line of that is, the Clinton 
administration gave us the list. We never made it public. We 
kept it here at the committee. The committee was able to see it 
and that's fine.
    I certainly don't agree with that. Because frankly, if 
you're on this list of 103, you'd better shape up, because 
we're going to get it cleaned up one way or the other. So this 
103 has to be cleaned up, out of the 1,200 sites.
    Now, we know in Omaha there has been actual exposure, 
because I showed you that. We know in Libby there is exposure. 
I can't get from EPA what do they need from us by way of 
funding, by way of personnel or whatever they need to get 
moving. So I don't want to go on very long, because I feel like 
you are in a situation where--you're right, you don't work for 
the EPA. You can't get this information for me.
    But I am very frustrated about this. I feel like we have 
gotten something from the EPA in connection with some of this 
information, but it's not complete. So all I get is incomplete 
information.
    So I just want to say for the record, Mr. Chairman, that 
just as I used the Johnson nomination to stop a terrible 
program from going forward, I intend to use the leverage I have 
here, and it is no disrespect for anyone, it is out of love and 
respect for the people who live at these sites, to say that I 
expect to get, in short order, a list of these sites, in the 
order of priority, with information as to what it will cost to 
clean them up, what it will cost to make them at least do what 
we call in our office triage, to protect the little kids--let's 
take another look at these kids, this little boy who got 
exposed to lead in Omaha, and now has irreversible brain damage 
from lead. This poor woman cannot get EPA to go test how much 
lead is left in her back yard.
    This isn't about charts and numbers. It's about people like 
this. This woman probably never asked her Federal Government to 
do a darned thing. I'm sure that she's a middle-class homeowner 
who gets up in the morning and loves her kids. Now look what 
happened here, and she can't get EPA to get a measure of the 
lead in her back yard.
    So what I will ask you to do is if you are talking to the 
folks over there, as you go through the nomination, to tell 
them that Senator Boxer is being tough on this situation. I 
would love a letter telling us that they went to this woman's 
back yard with their equipment and gave her a straight answer. 
Because now she has another child, right? The baby sister has 
lead poisoning now, too. She can't get a reading, EPA can't 
come out there and do that?
    This is very serious. We're not doing enough. I know a lot 
of it is caught up in the dollars. Look, I am the first one to 
admit, you can't do this on the cheap. I know a lot of people 
didn't like Superfund because yes, it did put in a revenue 
raise or tax or whatever you want to call it for polluters to 
pay. I know some people didn't like it because it was a general 
revenue fund. In other words, it didn't just go to the 
polluter, it went to the people who are in that business, who 
could potentially pollute.
    But it gave us the funding we needed. So anyway, that's my 
message to you. You are all good people, I'm proud that you are 
stepping up to the plate. But these are serious times. The 
Superfund program has been neglected. So I'm coming in with 
this request that we get this information, the sooner I get it, 
the happier we all are and we can move on. Thank you.
    Senator Jeffords. I would like to join in that request. I 
am agreeing with everything you stated.
    Senator Boxer. Thank you, Senator.
    Senator Jeffords. We have to see some action.
    Senator Boxer. Thank you, Senator. So now the request is 
coming again from the two of us. Thank you very much.
    Senator Inhofe. Senator Obama, if you would like to take 
both of your rounds at once, you may do so.

OPENING STATEMENT OF HON. BARACK OBAMA, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Obama. Why don't I do that, Mr. Chairman, thank you 
very much.
    First of all, I think Senator Boxer, as usual, was 
extraordinarily eloquent about a problem that, as she 
mentioned, affects my State apparently fairly significantly. I 
have 11 of the sites that are mentioned here as, and again, all 
Senator Boxer and I can do is go by the title of this list: 
Superfund Sites Where Human Exposure is Not Under Control. Now, 
that may mean something different. But that's the title.
    So Ms. Bodine, I would strongly recommend that you forward 
this message to Mr. Johnson, make sure that he understand the 
urgency of the situation here.
    Let me make a larger point. That is, in my brief time here, 
I have only been in office 6 months, my experience already has 
been that EPA, under this Administration, is reticent to share 
information with Congress. I don't know why that is.
    But that appears to be the case. It just strikes me that in 
circumstances like this, we know that it's not going to be easy 
to solve the problem. I don't get a sense that this committee 
has gone out of its way to try to politicize these issues. All 
we try to do is get the problem solved, but we can't solve the 
problem in the blind.
    So I join Senator Boxer, I was a signatory to the letter 
making this request. I am expecting that we get some prompt 
responses.
    Now, let me shift to something that actually connects with 
that painful photograph that Senator Boxer just showed, and 
that's the issue of lead paint. I'm going to direct this to 
you, Mr. Peacock. I want to ask you about a subject that's of 
great importance to me, and that's the issue of lead poisoning 
in children.
    High blood lead levels, as you know, can have a devastating 
impact on children's health. They can lead to behavioral 
problems, learning disabilities, seizures. The EPA estimates 
that 890,000 children in this country suffer from elevated 
blood lead levels. In my home town of Chicago, there are 6,000 
children with high blood lead levels. That by the way is the 
highest in the country, as far as we know. It is a problem that 
disproportionately affects poor and minority children. Fully 22 
percent of African American children living in pre-1946 housing 
have lead poisoning, 22 percent. It's just an astonishing 
statistic.
    Now, in 1992, Congress mandated that EPA would promulgate 
regulations on contractors engaged in home remodeling and 
renovation. So that's 13 years ago. It was supposed to have 
been completed, these regulations were supposed to have been 
promulgated by October 1996, which would be 9 years ago.
    EPA's own analysis found that such a regulatory program 
could prevent 28,000 lead-related illnesses each year. That 
would, by the way, if it's not enough to see the pictures that 
Senator Boxer showed, and you're just thinking in terms of 
economic interests involved, we know that that would save us 
probably about $4 billion in economic benefits, both in terms 
of health care costs and additional costs for supporting 
children with lead poisoning.
    Now, 13 years after Congress first issued this mandate, the 
EPA still hasn't proposed any rules. And for the last several 
months, I have been trying to understand why. When this 
committee considered Administrator Johnson's nomination in 
April, I asked him when EPA was going to issue this rule. Mr. 
Johnson didn't answer my question, he said that EPA was working 
on a voluntary program.
    Of course, that's not what the law requires. The law 
doesn't say, the EPA may set up a voluntary program. The law 
says, the EPA shall promulgate regulations, mandatory 
regulations, around this issue. In May, Senator Boxer and 
myself wrote a follow-up letter to Mr. Johnson, asking him 
again, when will he issue the rules on lead. I've gotten no 
response on this letter.
    Last month, I included an amendment in the EPA 
appropriation that would prohibit the Agency from spending any 
funds to delay implementation of this requirement. You may be 
aware, that bill passed the Senate unanimously.
    So Mr. Peacock, like Ms. Bodine, this is always a difficult 
situation, you guys are just coming in, and I don't want to 
visit the sins of previous administrators on you. But my 
question is very simple, can you make a public commitment today 
that EPA is going to issue these lead rules by a date certain? 
Do you have any indication that that is taking place?
    Mr. Peacock. Thank you, Senator, that's a good question. 
Just let me make three points. You are right to point out this 
is not an issue I have been involved in in the past or 
currently. On the other hand, as a resident of the District of 
Columbia, I am interested in lead poisoning and what it can do 
to kids.
    The second point, not diminishing what work needs to be 
done, blood lead levels are another example of a success story 
so far in the United States, blood leads have dramatically 
decreased, particularly after lead was taken out of gasoline. 
It continues, according to some of the most recent information, 
it continues to decrease.
    So now what we find are particular areas, such as, Chicago, 
where you can spot particular populations which continue to 
have this problem and it persists, which I think is a lesson 
for making sure the resources and efforts that are put toward 
it are targeted. I don't doubt that, for instance, the 
renovation of old housing stock is a place to target such 
resources.
    I do not know intimately about this particular legal 
requirement or the requirement for issuing a regulation. What I 
do know is that EPA has been working with the renovation and 
repair industry. What I do not know is whether this would be 
their guidelines or whether it is, in fact, a regulation, as 
you desire, and the law as you say may require.
    But I believe it may be a regulation, and my understanding 
is there is a desire to get a proposed rule out by the end of 
this year. Can I guarantee that in my current position? No, I 
can't. But I can certainly find out more about that for you.
    Senator Obama. OK, well, I'm sympathetic to the fact that 
EPA regulations, that's a big manual. I assume you haven't 
memorized all of them.
    Mr. Peacock. I probably know more than my fair share.
    Senator Obama. Right. So let me just read to you Title 15, 
section 2682(c)(3) of the U.S. Code, just so that you're clear 
in terms of the statute that I'm referring to here.

    ``Within 4 years after October 28, 1992, the Administrator 
shall revise the regulations,'' and the title of the overall 
regulations is Lead-Based Paint Activity Training and 
Certification. ``The Administrator shall revise the regulations 
to apply to renovation or remodeling activities in target 
housing, public buildings constructed before 1978, and 
commercial buildings that create lead-based paint hazards.''

    So it's not ambiguous. You're exactly right, I think the 
original intention was, we've taken lead paint out of, or lead 
out of gasoline. That has reduced lead poisoning, sort of 
ambient lead poisoning that's everywhere. We now have a 
localized problem that was specifically what this statute was 
designed to address, was old housing stock that is renovated, 
and to make sure, in the same way, that if there is asbestos in 
housing that we are going to make sure that we're not exposing 
folks or workers to this poisoning, that we're going to do the 
same thing with respect to lead-based paint.
    So your rationales were right, that's why the statute was 
written. Thirteen years later, 13, I mean, I know the Federal 
Government moves slowly, but even with public notice provisions 
and all the hoops that have to be jumped through, 13 years is 
just an extraordinary amount of time to get a rule passed.
    So I appreciate your public commitment to find out what's 
going on. I guess what I'm looking for is a public commitment 
to follow the law. Now, if the Administration decides that this 
is not important, then they should have the law changed. Right?
    Mr. Peacock. Yes.
    Senator Obama. But the law is on the books, and has been 
ignored for 13 years. So can you tell me, can you give me any 
rationale as to why we wouldn't just go ahead and pass this 
law? What assurance can I get from you that once you're 
confirmed, I'm not getting a bunch of letters that are still 
ignored?
    Mr. Peacock. Let me commit to do this for you, Senator. My 
understanding, if I recall correctly, is that EPA is planning 
on having a proposed rule out by the end of this year. If 
that's incorrect, I will certainly let you know.
    Once again, and this is more intuitive, my understanding--
is that this issue, in particular, affects many small 
businesses, because there are a lot of people out there who are 
not very large who do renovation and repair. That may be a 
contributor, not an excuse, but a contributor for why it has 
taken as long as it has. Once again, that may be a guess.
    Senator Obama. I am very sympathetic to the costs involved 
and that they shouldn't be borne by small businesses 
exclusively. I'm not interested in hoisting a localized tax, 
essentially, on individual contractors to solve what should be 
a broader obligation on the part of society.
    So if the EPA believes that, they are concerned about small 
contractors having to bear these costs, then we should figure 
that out. If we need appropriations to deal with this, then 
that's something I'm happy to address. But that's not an excuse 
for ignoring it.
    Mr. Peacock. No, and actually I wasn't alluding to costs as 
much as my own experience with the printing industry. You have 
to make sure whatever you promulgate can be enforced 
effectively. With a lot of small entities, that can be 
difficult. That's actually what I was alluding to, although I 
suppose costs could be----
    Senator Obama. Well, if it's an enforcement issue, then my 
assumption, there are a lot of smart people over at the EPA, 
you soon to be one of them. My assumption is that, for example, 
I just bought a house in Chicago. It's a 1920 house. I assume 
that it would not be difficult to have local governments and 
municipalities say that prior to your doing any renovations on 
the home, you have to do a quick test for lead-based paint, and 
if so, you have to show some sort of certificate that in fact 
it was done properly.
    Now, there may be some resistance on the part of local 
municipalities about that. I promise you I could convince the 
city of Chicago to go along with something like that. But there 
has to be that rule in place.
    Mr. Peacock. Let me get back to you with the straight 
story, and of course the bottom line is to make sure we 
continue to reduce these children's blood leads.
    Senator Obama. OK, thank you, Mr. Chairman. I appreciate 
your forbearance.
    Let me just close by saying this. Again, Senator Boxer 
alluded to this, I am not interested in holding any of your 
nominations hostage. But you should let, if you get any 
resistance from your future boss, the Administrator, about 
this, you should let him know that I am deeply concerned about 
this and willing to gum up the works a little bit until I get a 
clear response.
    Senator Inhofe. Thank you very much, Senator Obama.
    Let me go ahead, I guess we are each going to take another 
5 minutes. Just so I can get things clear in the record, I did 
want to clarify the statement that was made by Senator Jeffords 
concerning today's, the G8 communique. The language in the G8 
communique having to do with climate change is precisely, 
verbatim of the message or the position of the President in 
2002. I will read it.

    ``While uncertainties remain in our understanding of 
climate change, we know enough to act now to put ourselves on a 
path to slow and, as science justifies, stop and then reverse 
the growth of greenhouse gases.''

    Now, I would say further on this, we just went through this 
on the floor a matter of 2 or 3 weeks ago. I headed up the 
opposition to an amendment, it was debated for 2 days. I 
pointed out very clearly that the initial creator of the 
climate change and his hockey stick, Michael Mann from 
Virginia, had been totally repudiated, he has been refuted by 
the scientific community, and that virtually all science since 
1999 has stated that yes, there may be some climate change 
taking place.
    However, our climate today is not as high as it was in the 
medieval warming period, and that if it is warmer, there is no 
sound science to show that it is due to anthropogenic gases, 
man-made gases, methane or CO<INF>2</INF>. I think it's 
important to have that in the record.
    Second, for the record, I would like to suggest that we 
have the Office of Government Ethics, Mr. Nakayama, the reason 
we have the Office of Government Ethics is to determine if 
there could be a conflict of interest, and if so, we would have 
to deal with that during this process. I am going to read the 
letter instead of just inserting it for the record. This is 
dated June 29.

    ``In accordance with the Ethics in Government Act of 1978, 
I enclose a copy of the financial disclosure report filed by 
Granta Nakayama, who has been nominated by President Bush for 
the position of Assistant Administrator for Enforcement and 
Compliance Assurance, U.S. Environmental Protection Agency. We 
have reviewed the report and have also obtained advice from the 
Environmental Protection Agency concerning any possible 
conflicts in light of its functions and the nominee's proposed 
duties. Also enclosed is a letter dated June 10, 2005 from Mr. 
Nakayama to the Agency ethics official, outlining the steps 
that he will take to avoid conflicts of interest. Unless a 
specific date has been agreed to, the nominee must fully comply 
within 3 months of his confirmation date with the actions he 
agreed to take in his ethic agreement. Based thereon, we 
believe that Mr. Nakayama is in complete compliance with 
applicable laws and regulations governing conflicts of 
interest.''

    This is signed by the Acting Director of the Office of 
Governmental Ethics.
    I would ask you this question, Mr. Nakayama. You have said 
that you would comply within 3 months of the confirmation date 
with the actions agreed to. If you are confirmed, will you do 
that?
    Mr. Nakayama. Yes, Mr. Chairman, I would.
    Senator Inhofe. Mr. Peacock, we became involved in 
something I think was very significant, you may not even be 
aware of it. But we discovered that there are discretionary 
grants that emanate from the Environmental Protection Agency 
that are first of all, they are not based on sound science; 
second, many of these grants go to the same people; third, it 
took us, and me as Chairman of this committee, a month to find 
out who actually passed on these grants.
    We have set a reform in place. It seems to be working right 
now. But it's important to me that you, and I say all three of 
you, will work with us in this effort to continue this reform 
so that we can stop any kind of a discretionary grant that 
doesn't have the official sanction of the leadership of the 
EPA. Do you have any comments to make about that?
    Mr. Peacock. As you know, Senator, half of the EPA's budget 
grants, not all discretionary grants, but a significant portion 
are discretionary grants. This has been, I think for 10 years 
now, a material weakness noted by the Inspector General. As you 
mentioned, there is a 5-year plan that is being implemented to 
improve the transparency, accountability, and results in the 
grant programs. There is still a lot more work to be done 
there, and I want to work with you on it.
    Senator Inhofe. You're right, for 10 years they've been 
talking about it but we're going to do it.
    Mr. Peacock. Yes, I think we have started down that road.
    Senator Inhofe. I think also, and as I talk to my cities 
and towns who are, I was a mayor at one time, I know what 
unfunded mandates are, I know that is probably the worst thing 
faced by our mayors as well as our Governors. I've gone through 
these things and recognized that it is really a serious 
problem.
    Any time you have a grant that goes out, it's competing 
with a grant that might help a local community comply with 
water quality standards, drinking water or other things. So it 
goes beyond just the good government. It is something that 
drains those causes that we're supposed to be funding and 
taking care of.
    Senator Jeffords.
    Senator Jeffords. Yes, Mr. Chairman. For Ms. Bodine, the 
Superfund program is at a crossroads. The fund, which held $3.8 
billion in 1996 is essentially bankrupt.
    The 2005 budget is $574 million in constant dollars below 
levels from 1993. As a result of systematic funding shortfall, 
the rate of completed cleanups has plummeted and EPA is forced 
to shift money from ongoing projects to start the new cleanups.
    What will you do as Assistant Administrator to assure that 
the abandoned site on the National Priorities List like 
Elizabeth Mine, Eli Mine, and the Pikes Hill Copper Mine in 
Vermont get promised Federal funding for investigation and 
cleanup?
    Ms. Bodine. Thank you, Senator Jeffords. You can count on 
me to be a fierce advocate of the Superfund program within the 
Administration. As I discussed earlier with Senator Lautenberg, 
the Superfund program is funded through annual appropriations. 
That's true today, that's been true since its inception.
    But first, I would certainly within the Administration be 
an advocate. I agree with the comments that were made earlier 
about the importance of risk and focusing on risk reduction. As 
I noted earlier, there has in the past been a focus on 
construction completions, and we've seen where a lot of sites 
where the cost to the Agency was less than $5 million were 
pushed through the system. Again, I don't know the risks 
associated with them, but that may have been at the detriment 
of more risky sites.
    Once the Administration receives the appropriation from 
Congress, at whatever level it is, I also will say that I want 
to make sure that those dollars are used in the most effective 
and efficient way. I heard concern expressed about the 
Superfund program. I have concerns about it as well. I do think 
that there are opportunities here to improve the management of 
the program, to improve the incentives created by how we track 
things, what are we requiring regions to report on. You change 
behavior that way.
    Certainly making decisions based on risk as opposed to pure 
construction completions, those are all things that can be 
tracked. That will change behavior, both out in the regions and 
in terms of how sites are put forward.
    So I would like to say to the entire committee that I will 
look forward to working with everybody on improving management 
of the Superfund program. I do have a goal of getting Superfund 
sites cleaned up more quickly.
    Senator Jeffords. I appreciate those remarks. I can assure 
you you will have me right behind you to make sure that you get 
the proper wherewithal to make those decisions.
    Ms. Bodine. Thank you.
    Senator Jeffords. Mr. Peacock, why hasn't EPA been allowed 
by OMB to issue a proposed rule to implement the 
PM<INF>2.5</INF> standard and the second phase of the ozone 
implementation rule?
    Mr. Peacock. Senator, I actually am not familiar with that 
rule. I can't even say that it's at OMB for review, although I 
have no reason to doubt that it is. I am involved on the budget 
side of OMB and tend not to get involved in the review of 
regulations unless they affect the budget. But I would be happy 
to get back to you to answer that question.
    [The response referred to follows:]

    I understand that EPA sent a draft of the proposed PM<INF>2.5</INF> 
Implementation Rule to OMB in October of last year. Since that time, 
however, senior EPA managers and OMB personnel have been focused on 
finalizing a number of regulatory packages that were subject to 
judicial deadlines or were a higher priority for the Agency. This 
includes significant actions such as the Clean Air Interstate Rule 
(CAIR) and the Best Available Technology (BART) rule (a key part of the 
regional haze program). These rules, especially CAIR, require important 
changes to the PM<INF>2.5</INF> implementation rule, as well as to the 
draft final 8-hour ozone implementation rule. EPA managers have now 
placed the highest priority on completing the 8-Hour Ozone 
Implementation rule and the PM<INF>2.5</INF> Implementation Rule. EPA 
and OIRA staff are now working through changes for both of these rules.

    Senator Jeffords. I would appreciate it if you would get 
back to me. I want to assure you, I'll do anything I can do to 
help you get what you need.
    Mr. Peacock. Great.
    Senator Jeffords. Mr. Nakayama, there is currently a debate 
going on within the Administration and within Congress 
concerning the extent to which the public should be able to 
obtain documents from EPA and other Federal agencies and 
outside parties produced during enforcement settlement 
negotiations. Do you think that additional legislation is 
needed to prevent the disclosure of documents or should there 
be more public disclosure of documents?
    Mr. Nakayama. Senator, I appreciate the question. That is 
an issue which I am personally not familiar with, I did not 
realize there was legislation or pending legislation that is 
being considered regarding the scope of documents that would be 
released.
    From an enforcement standpoint, and I don't want to sound 
too parochial, but your interests are maybe a little different 
if you are the enforcer, because you need to frankly be able to 
maintain confidentiality when you are negotiating a settlement 
agreement or moving forward. On the other hand, I can 
understand the interest in public disclosure.
    So it's a question that I will be glad to look into, 
Senator. I just don't have any opinion on that particular 
matter at this point.
    Senator Jeffords. I would appreciate it if you'd look into 
it and let me know what you have, and your views. I'll be there 
to help you if you need help.
    Mr. Nakayama. Thank you, Senator.
    Senator Inhofe. Thank you, Senator Jeffords.
    I thank all of you, and I do apologize to you and to your 
families who hung in there for you and I'm sorry, that seems to 
happen here occasionally in the U.S. Senate.
    As far as the statements that were made by two or three of 
the Senators here concerning documents, during the 
consideration of the Clear Skies legislation, people were 
requesting documents from this panel up here. We put a count on 
it, and we found that during the consideration of the Clean Air 
legislation, which did not pass, we received over 10,000 pages 
of documents that would fall into the categories of modeling 
information and responses to requests, which is over four times 
as many documents as we had received during the 1990 Clean Air 
Act legislation. So I think maybe we're just asking for maybe 
too much sometimes.
    So you might take that back to your new jobs. I would say 
to you, Ms. Bodine, we would like very much, after your 
successful effort on the floor today on the WRDA bill, to 
borrow you and use you on the floor of the Senate when we get 
our bill up which we have now passed out of our committee.
    [Laughter.]
    Senator Inhofe. We thank all of you. Is there one last 
thing anybody wants to say before we adjourn this meeting?
    Ms. Bodine. Thank you very much for the opportunity to 
appear before you.
    Mr. Peacock. Thank you, Mr. Chairman and Senators.
    Mr. Nakayama. Thank you, Mr. Chairman.
    Senator Inhofe. We look forward to working with you, and we 
are adjourned.
    [Whereupon, at 5:27 p.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]
Statement of Marcus Peacock, Nominated for Deputy Administrator for the 
                  U.S. Environmental Protection Agency
    Mr. Chairman, Senator Jeffords, and distinguished members of the 
Committee, I am honored to appear before you today as the President's 
nominee for the position of Deputy Administrator of the Environmental 
Protection Agency. I am indebted to the President for his trust and the 
privilege, if confirmed, of serving the public in this new capacity.
    There are three important things I would like you to know about me. 
They make up who I am and govern how I would conduct the job of Deputy 
Administrator if confirmed.
    First, I am a first generation American. My parents emigrated from 
war-torn England with three suitcases, a couple of trunks, and $200. 
Leaving their family and friends behind, they took a great risk because 
of the opportunity they saw in this country. This was an opportunity 
not just for themselves, but for their children and their children's 
children. It is the greatest gift I have ever received. I love this 
country and cherish the rights we enjoy--rights that give us the 
opportunity to realize our dreams. The first function of any government 
should be to protect and honor those rights.
    Second, I grew up in Minnesota. Minnesota gave me two things. 
First, one cannot grow up in that great State without appreciating the 
outdoors. Even when it is 20 degrees below zero. Indeed, my deep 
interest in the environment started at about age 15 at winter camp. I 
was working on laying out an orienteering course and found myself 
standing alone in the middle of a frozen lake while a fellow Boy Scout 
moved a marker along the shoreline. For some reason, at that moment, 
the serenity and peacefulness of that setting connected with me. My 
eyes opened up to a deeper wonder of nature. That day started a 
lifelong interest in the natural world. It drove me first to an 
interest in science and, ultimately, engineering. It is a fascination 
my wife and I share with our kids through hiking, camping, canoeing, 
and birding.
    Minnesota also gave me a strong sense of community. Public service 
is a high calling in Minnesota and pubic servants are expected to 
express the highest possible level of integrity. An adage etched into 
the old Minneapolis Convention Center struck home with me. It said, 
``Participation in the rights of citizenship presumes participation in 
the duties of citizenship.'' My parents helped me appreciate the rights 
of citizenship in the United States. Minnesota helped me understand 
that those rights came with an obligation to the community and the 
Nation.
    Finally, I am an engineer. I have not practiced engineering as a 
profession for many years. Nonetheless, I like to think I practice 
engineering everyday. To me, the core of engineering is a disciplined 
process for problem solving. It requires one to be clear, open-minded, 
and analytical. And it focuses on getting results. As a manager and 
budget officer, I have seen many different types of problems. 
Engineering has given me the skills to break problems into manageable 
pieces and work with others to come up with solutions that get results. 
I think this is exactly the kind of skill one needs to be a Deputy 
Administrator.
    Should I be confirmed, I would bring to EPA a strong sense of 
public service, a deep appreciation for the environment, and an 
excellent set of problem solving and management skills.
    Under the President's leadership, our country has made great 
strides in cleaning up our air, water, and land in a way that allows 
our nation to continue to grow and prosper. The air my children breathe 
today is much cleaner than when I was a kid. Our food and drinking 
water supplies are safer. Our land is better protected.
    Building on this success, EPA Administrator Steve Johnson has laid 
out two key challenges for the Agency. First, we must make sure we are 
using the best available scientific information to make decisions. 
Second, we must formalize collaborative approaches to solving problems. 
On this second point, traditional methods of environmental protection 
do not work as well as in the past on our remaining challenges. 
Collaborating with States and other partners to solve remaining 
environmental problems needs to become more routine. I look forward to 
helping the Administrator tackle these challenges and make sure the 
air, water, and land my grandchildren breathe, drink, and live on are 
even cleaner than what we have today.
    Mr. Chairman, if confirmed I will do everything I can as Deputy 
Administrator to continue to serve the people of this great country, 
protecting their health and the health of our environment. Thank you 
very much and I would be happy to answer any questions.






[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


       Responses by Marcus Peacock to Additional Questions from 
                            Senator Jeffords
    Question 1. With regard to the findings in EPA's final June 2004 
study, Evaluation of Impacts to Underground Sources of Drinking Water 
by Hydraulic Fracturing of Coalbed Methane Reservoirs, that the use of 
diesel was a potential threat to underground sources of drinking water, 
do you think should EPA plan to develop national regulation standards 
for the underground injection control program to address this threat? 
If not, why not?
    Response. I am not familiar with this report or the details of this 
issue. If confirmed, I will look into the issue.

    Question 2. What action do you think EPA should take to address any 
endangerment to public health as a result of hydraulic fracturing 
practices?
    Response. As noted in the answer to the previous question, I am not 
familiar with this report or the details of EPA's activities in this 
area. If confirmed, I will look into it.

    Question 3. Do you know what monitoring procedures are in place to 
ensure that the three major companies conducting hydraulic fracturing 
that signed the MOA with EPA in December of 2003 are no longer using 
diesel as a part of their hydraulic fracturing process? Given that this 
MOA contains no enforcement provisions, what actions should taken 
against these companies should they continue to use diesel? Is the 
voluntary commitment to ban the use of diesel working and have these 
companies fully implemented the ban throughout their entire operations?
    Response. I have no knowledge of this MOA, but will look into it, 
if confirmed.

    Question 4. On March 10, 2005, Assistant Administrator Ben Grumbles 
testified before the House Government Reform Committee regarding lead 
levels in drinking water. Mr. Grumbles stated that EPA conducted a ten-
state review of LCR implementation that involved review of over 450 
utilities. What actions do you think should be taken regarding these 
reviews in terms of reports and enforcement? If confirmed, would you 
provide the results of this data review, including any reports, to this 
committee?
    Response. It is my understanding that EPA is still working to 
analyze the data collected during its review of the ten state programs. 
I have been told that the Agency will release a report with a national 
summary of the findings and make it available to both the public and 
the committee.

    Question 5. At the March 2005 House hearing, Mr. Grumbles testified 
that data provided by the states indicates that 90th percentile levels 
for approximately 96 percent of utilities subject to the Lead and 
Copper Rule (LCR) are below the 15 ppb action level. Regarding the 4 
percent of utilities out of compliance with the LCR. If confirmed, 
would you provide to the committee a summary of the sampling results 
for each utility, the details of noncompliance, and specify whether an 
enforcement action is pending or has been taken?
    Response. If confirmed, I will work with the Office of Water and 
the States toward a goal of providing a summary of recent information 
to the committee.

    Question 6. While at OMB did you review the Administration's rule 
to exempt coal-fired power plants from the air toxic control 
requirements of section 112 of the Clean Air Act? If so, do you think 
it is in the best interest of the public's and environmental health to 
choose, as the Administration has, to allow hundreds of coal-fired 
power plants to avoid adopting maximum achievable control technology 
for decades?
    Response. OMB's Office of Information and Regulatory Affairs 
(OIRA), not my office, reviewed the section 112 revision notice. 
However, I am generally familiar with it.
    This rule accompanies the Clean Air Mercury Rule, which represents 
the first time the U.S., or any other country, has regulated mercury 
emissions from existing coal-fired power plants. Along with the Clean 
Air Interstate Rule, EPA's recent regulations will require one of the 
most significant investments in air pollution technology ever in the 
history of the Clean Air Act and represents an important part of this 
Administration's efforts to help protect public health and the 
environment without interfering with the steady flow of affordable 
energy for American consumers and business.

    Question 7. The Administration has routinely requested increased 
funds for the EPA's national diesel initiative and clean school bus 
campaign. Congress has not cooperated and the request and 
appropriations have gone down over time. What effect, if any, will the 
authorization bill included as part of the energy bill and the Clean 
Air Subcommittee hearing discussed on Tuesday have on the availability 
of funds?
    Response. Diesel retrofits in general are cost-effective control 
strategies for important pollution reductions. Both the national diesel 
initiative, including finalizing new emissions standards for locomotive 
and marine engines, and clean school bus program are priorities. The 
results associated with these programs will help to reduce particulate 
matter being emitted into the air and provide immediate public health 
benefits. There is substantial interest and support from industry, 
state and local governments, and public health and environmental 
organizations nationwide for these programs.
    Although the Administration supports efforts to reduce emissions 
from both new and existing diesel engines, we are concerned that the 
funding authorized for diesel retrofit programs in the energy bill goes 
well beyond the funding for such efforts called for in the President's 
2006 budget. Like similar authorizations that go well beyond the 
President's budget, we cannot support the authorization levels in this 
bill as they could create pressure to appropriate those levels in the 
future. However, we look forward to working with Congress to address 
the public health goals of the legislation consistent with the fiscal 
constraints that we all must confront.

    Question 8. Which rules and regulations that have you worked on 
over the last 10 years will have the greatest beneficial impact on 
public and environmental health?
    Response. I have worked on a limited number of rules and 
regulations over the last 10 years and very few of these addressed 
public or environmental health. This is because my purview tended to 
address rules and regulations that had an effect on the Federal budget. 
Nonetheless, of the limited number of rules and regulations I have 
worked on, one stands out as being potentially beneficial to 
environmental health. I worked on a U.S. Department of Agriculture rule 
clarifying the Federal share for the cost of eradicating or controlling 
invasive species. The rule helps State and local officials and other 
partners understand, upfront, what they are responsible for and what 
they can expect from the Federal Government. This reduces uncertainty 
and should speed up activities that will eradicate or control such 
species instead of waiting to negotiate cost-share on a case by case 
basis. Unfortunately, the execution of this rule has been blocked by 
appropriations language.

    Question 9. Have you, at any point in your work at OMB, 
participated in discussions or meetings regarding Clean Air Act 
rulemakings that were intentionally structured or designed to avoid the 
docketing requirements of the Clean Air Act?
    Response. No, I have not participated in discussions or meetings 
regarding Clean Air Act rulemakings that were intentionally structured 
or designed to avoid docketing requirements of the Clean Air Act.

    Question 10a. EPA stated in its May 12th Federal Register notice 
finalizing the Clean Air Interstate Rule (or CAIR) that the reductions 
in ground-level ozone achieved by CAIR could save 500 more people from 
premature death every year. Yet EPA did not include these benefits in 
its main analysis. Since then, three new studies were published in the 
July edition of the journal of Epidemiology which clearly provide 
strong scientific evidence that the link between ozone and premature 
mortality is real and significant and additive to the effects of fine 
particles.
    Will and should EPA now immediately include premature death 
reduction benefits in its primary estimates for future ozone rules? If 
not, what process do you believe EPA should have to go through before 
using studies published in peer-reviewed journals for rulemaking 
analyses?
    Response. I am not familiar with the current published literature 
on ozone mortality. If confirmed, I commit to taking a close look at 
this issue.

    Question 10b. If EPA decides not to include ozone mortality as part 
of the next ozone rule analysis, would you be willing to provide this 
Committee with an explanation of any such decision, including a 
description of what steps you feel you need to take before you can 
begin applying this peer-reviewed literature?
    Response. Again, I am not familiar with the details related to this 
issue but, if confirmed, I will look into it.

    Question 11. There have been a number of instances in recent 
regulatory analyses where EPA has used methods which have not been 
subject to outside peer review. A primary example of this was OMB's 
insistence that the Clear Skies benefit-cost analysis should include an 
estimate of benefits based on a ``Senior Death Discount'' which reduced 
the value EPA normally uses for avoided early death by more than half 
for senior citizens (from $6.3 million per life to $2.3 million for 
people over 70). Now, we know that this was OMB's idea and not EPA's 
and this ``Senior Death Discount'' was to be applied even though it had 
no scientific underpinning and peer review to support it.
    It seems reasonable that such proposals by OMB or other Federal 
agencies to use new methods or assumptions in EPA analyses should be 
conveyed in writing and made available to the public. Do you agree such 
new proposed methods should be subject to some kind of peer review so 
we can avoid debacles such as OMB's Senior Death Discount approach in 
the future?
    Response. I agree that important methods or assumptions included in 
its regulatory analyses should be subject to outside peer review 
consistent with the Office of Management and Budget's Peer Review 
Bulletin issued on December 16, 2004. Under this Bulletin, agencies are 
granted broad discretion to weigh the benefits and costs of using a 
particular peer review mechanism for a specific information product or 
components thereof.

    Question 12. According to an Inside EPA article of September 17, 
2004, EPA and OMB have been collaborating on an approach which polls a 
small number of outside experts and asks them to interpret the 
literature on fine particle health effects and provide an estimated 
dose-response function. This sounds to me like an odd kind of non-
scientific process where a small number of selected people are being 
asked to do the work traditionally done by EPA scientists. Inside EPA 
article reports that the result of this OMB--EPA collaboration is a 
lowering of the estimated benefits of pollution control. The 
professional experts and scientists on the EPA staff were strongly 
critical of this project, which I also imagine is a very time-consuming 
and expensive effort. Aren't there enough health effects experts 
already on the government payroll in EPA who have already interpreted 
the particulate matter health effects literature, and haven't these EPA 
experts' interpretations already been subject to outside peer review by 
the Science Advisory Board and the National Academy of Sciences?
    Response. I am not familiar with the expert elicitation approach 
mentioned, nor any of the details associated with the estimating the 
benefits of pollution control. If confirmed, I plan to take a close 
look at this issue and will make any changes necessary.

    Question 13. If you answered yes to the previous question, why is 
EPA spending taxpayer dollars at OMB's direction on this additional 
outside work for a health endpoint that EPA can already quantify using 
peer-reviewed methods, while a wide range of other human health and 
ecological effects are left unquantified for lack of adequate research 
investment? These unquantified effects include those from dry and wet 
deposition of mercury and mercury contamination in fish, the effects of 
atmospheric nitrogen deposition in watersheds and estuaries like the 
Chesapeake Bay which EPA so far has failed to include in its analyses 
of the benefits of NOx control, and the lack of any method for 
calculating the benefits of improved visibility in cities and 
residential areas where most of us live.
    Response. Again, I am not familiar with the expert elicitation 
approach mentioned or why it is being pursued, but if confirmed, I will 
take as close a look as necessary.

    Question 14. How much is this outside expert survey project, 
mentioned in question No. 13, costing the taxpayers compared to how 
much EPA has been investing in research to address human health and 
ecological effects currently left out of your analyses?
    Response. Although I am not familiar with this case in particular, 
I understand that EPA's Office of Air and Radiation and the Office of 
Research and Development, as well as other EPA offices have made 
significant investments in characterizing, quantifying, and valuing the 
benefits of improving our environment, including the effects of the 
deposition of nitrogen from the air, runoff and other sources on our 
estuaries. This particular project undoubtedly constitutes only a small 
portion of this research effort.

    Question 15. Do you agree that using scientifically rigorous 
surveys can help establish data needed to analyze the effects of EPA 
programs? Are you willing to provide this Committee with information 
regarding any survey work EPA has initiated which is being held up by 
OMB under its Paperwork Reduction Act authority? And if you find there 
is a backlog of scientific survey work being held up by OMB, what steps 
will you take to ensure scientific work on data collection can proceed 
on a timely basis?
    Response. I agree that scientifically rigorous surveys can help 
inform both Agency research and policymaking efforts. If confirmed, I 
commit to looking into the status of any Information Collection 
Requests, and will work to make sure such requests are reviewed as 
expeditiously as possible.

    Question 16. I'm sure you are familiar with OMB's annual Reports to 
Congress on the benefits and costs of Federal regulation, originally 
nicknamed the Stevens Report then the Thompson Reports. To their 
credit, in recent years OMB has made the comments submitted on its 
draft reports available to the public, an admirable example of 
transparency and accountability. However, the OMB website where these 
comments are published shows that EPA last submitted comments on the 
2002 report. Reading EPA's comments on the 2002 report, it is clear 
that the Agency had problems with many aspects of OMB's report and with 
OMB's preferred analytical practices pertaining to matters such as 
discounting future health benefits, using quality of life adjustments 
to reduce estimated benefits of mortality reductions, and other issues. 
I find it very odd that since 2002 EPA has been completely silent, 
submitting no comments on the record for the last 3 years of OMB 
reports. Will you provide this Committee with copies of any comments 
EPA has prepared on drafts of the Thompson Reports for the last 3 
years, including this year, with an explanation for why any such 
comments were not made public and addressed by OMB in the final 
versions of their reports?
    Response. OMB's Report to Congress on the costs and benefits of 
Federal regulation, known as the ``Thompson'' report, is written and 
produced by the Office of Information and Regulatory Affairs (OIRA) 
within the Office of Management and Budget. I was not directly involved 
in the report, except to review drafts. My office at OMB was not 
involved in the review process with other agencies. If confirmed, I 
will find out the details of the process that was used with respect to 
EPA, review the comments that were submitted by EPA and assess how OMB 
responded to EPA's comments.

    Question 17. You have been called the `father of OMB's Program 
Assessment Rating Tool,' designed to evaluate program performance. 
Please explain how this tool works with respect to preventative 
programs, such as most of the public health statutes that EPA 
administers? In other words, how do you quantify cancers avoided or 
hazardous waste not spilled?
    Response. A number of EPA programs with activities focused on 
prevention have been evaluated successfully by the Program Assessment 
Rating Tool (PART). These include programs with prevention, deterrence, 
compliance assistance, and research components. OMB recognized that not 
all programs are alike, and thus there are seven different PART 
instruments: Direct Federal, Competitive Grant, Block/Formula Grant, 
Regulatory Based, Research and Development, Capital Assets, and 
Credit--the first five of which have been used for EPA programs. The 
basic tool is the Direct Federal version. Each of the other versions 
adds a number of questions tailored to the specific implementation 
activities of that type of program. In addition, and has been the case 
with EPA, OMB and the agency have the flexibility to create a program-
specific hybrid tool which pulls appropriate questions from more than 
one version of the tool.
    It is often challenging to link directly preventative activities 
with environmental or human health impacts--ambient conditions, 
exposure or body burden/uptake, or health or ecological status. In some 
cases, programs have employed ``logic models'' that link programmatic 
activities with the desired outcomes. Annual performance measures thus 
capture programmatic outputs or intermediate outcomes, such as 
compliance rates or the installation of pollution control equipment by 
the regulated community. These annual measures are then linked to long-
term performance measures which measure the desired environmental or 
human health impacts. In some programs the preventative activities are 
a subset of the program's implementation activities. In these cases the 
program might have annual performance measures focused on programmatic 
activities or outputs, but all the program's activities would share the 
same long-term performance measures. Finally, in some cases it is 
possible to extrapolate from a representative sample the estimated 
impacts of programmatic activities on environmental or health impacts.

    Question 18. The free flow of information from EPA to the outside 
world is of critical importance. Recently, EPA settled a lawsuit with a 
group that had requested copies of employee surveys conducted by the 
agency in 1999, 2001, and 2003. The watchdog group had requested the 
information under the Freedom of Information Act and was basically 
stonewalled by the agency until a formal suit was filed. In addition, 
EPA is increasingly denying public interest groups fee waivers under 
FOIA. Not only were EPA's actions a waste of resources, they were 
against the law. What will you do to make sure that the Freedom of 
Information Act process is not politicized and that requests are timely 
and efficiently processed?
    Response. This Administration takes its obligations under the 
Freedom of Information Act seriously. I am not familiar with the case 
that is referenced in your question, but I commit to doing a thorough 
review of this process, including fee waivers, if confirmed.

    Question 19. The effects of management practices on employee morale 
is a critical area that will be under your purview at EPA. You have 
described the Deputy Administrator position as a sort of ``Chief 
Operating Officer.'' Should you be confirmed, are there certain steps 
you would take to monitor employee morale and ensure that it is going 
up rather than down?
    Response. In keeping with Administrator Johnson's commitment to 
transparency and collaboration, I view the effective stewardship of 
EPA's human resources as one of the most critical responsibilities of 
the Deputy Administrator. Working with the Administrator and with 
Agency leadership at all levels, I believe there are several ways to 
stay in touch with the EPA staff, helping ensure that staff understand 
how critical they are in achieving our mission and how much we value 
them as professionals and individuals. These steps include the 
following.
    Keeping in Touch with Staff Opinions.--The results recently 
reported from the Government-wide Federal Human Capital Survey (FHCS) 
once again confirms what is evident in the EPA workplace everyday. That 
is, EPA staff are strongly committed to the Agency's mission and 
understand their role in achieving that mission. Continued monitoring 
of employee perceptions of EPA, its leadership, its management, and the 
support staff receive in performing their duties will be an important 
step in making sure we are ahead of the curve in dealing with issues of 
morale and employee effectiveness.
    Taking an Active Role in Relationships with the Agency's Human 
Capital Constituencies.--EPA has a strong history of active interaction 
between senior leadership and human resources constituency groups 
across the Agency. EPA's unions are one of these key constituency 
groups and I intend to foster a relationship characterized by 
continuous dialog, union involvement, mutual respect, and honesty. I 
look forward to being actively involved in the work of EPA's Human 
Resources Council (HRC). An organization unique in Federal agencies, 
EPA's HRC is comprised of executive-level leaders whose role is to 
raise issues of significance to the effective management of the 
Agency's human resources and develop the analysis and advice that the 
Administrator needs to deal with those issues.
    Leading the Human Capital Change Effort at the Agency.--It is my 
understanding that EPA's human capital program is making progress in 
aligning its performance management, workforce planning, competency 
management, employee development, recruitment, and planning systems 
with the Agency's strategic plan and then measuring results.
    None of a Deputy Administrator's many areas of responsibility are 
more important than those in the human capital area. I look forward to 
working along side my new colleagues, just as has our Administrator, as 
part of an EPA team.

    Question 20. Given the fact that EPA dropped its voluntary program 
for lead poison prevention a short period after Administrator Johnson 
wrote to Senators Clinton and Obama that lead regulation was 
unnecessary and extolling the virtues of the voluntary approach, do you 
think that the Agency has realized, that at least for lead, voluntary 
programs are not a panacea to regulation? Do you think it would be a 
good idea to conduct a rigorous analysis of all of EPA's voluntary 
programs to make sure that they are achieving their environmental and 
health protection goals?
    Response. As I indicated at the hearing, it is my understanding 
that the Agency intends to propose a lead renovation and remodeling 
regulation by the end of the year.
    As I understand it, EPA is undertaking a review of their voluntary 
programs to more rigorously evaluate them. I believe the Agency's goal 
is to ensure that voluntary programs complement regulatory programs and 
promote innovative approaches for environmental protection.

    Question 21. On July 6, 2005 in Denmark, President Bush told 
reporters, ``Listen, I recognize the surface of the Earth is warmer and 
that an increase in greenhouse gases caused by humans is contributing 
to the problem.'' As you may know, the Administration's current 
voluntary approach to this problem is projected by the Energy 
Information Administration and every other economic forecasting entity 
to continue increasing U.S. greenhouse gas emissions for the 
foreseeable future, thereby continually contributing to and compounding 
the problem. You may also know that knowledgeable climatologists have 
projected that the U.S. and other major emitters have approximately 10-
15 years to ``decarbonize'' our energy supply system or the next 100 
years of global warming will be unstoppable. Do you think it would be 
prudent for the U.S. to adopt an approach that would result in and 
guarantee that total emissions in the U.S. and the world began to 
decline in the next 10-15 years?
    Response. I agree with the President's statements on climate change 
and I believe that the broad portfolio of actions that this 
Administration is undertaking in this important area is an effective 
response. These activities include near-term voluntary programs to 
reduce current greenhouse gas emissions, many of which are implemented 
by EPA, coupled with substantial efforts on technology development that 
will make new, cleaner energy sources available, and the world's 
largest program in climate science to improve our understanding and 
enable effective responses. Through this program, we will help the 
world achieve the purpose of the recently concluded G8 Summit in 
Gleneagles, Scotland--namely, ``to put ourselves on a path to slow and, 
as the science justifies, stop and then reverse the growth of 
greenhouse gases.''

    Question 22. In my view, the Agency's budget and resources for 
hazardous air pollutants research, regulation development and 
prevention activities have been much lower than warranted by the 
statutory requirements in the Clean Air Act. As a result, the Agency 
has often been significantly behind schedule. EPA has also recently 
issued unauthorized MACT standards incorporating risk factors 
inappropriately (for example in the plywood/boiler MACT development) 
and is also unwisely contemplating, perhaps due to resource 
constraints, further unauthorized residual risk regulatory actions. 
Will you commit to reviewing the air toxics program budget and 
resources and advising this Committee of gaps in funding or resources 
that are needed so that the Agency can promulgate and enforce rules 
that comport with the statutory requirements of the Clean Air Act?
    Response. I am aware of the ongoing demands and the importance of 
the air toxics program. If confirmed, I will look into this issue and 
address any problems if warranted.

    Question 23. A new report, issued this week by the Government 
Accountability Office, serves as a wake up call on the need to 
modernize our chemical management laws. According to GAO, EPA has 
required testing for fewer than 200 of the 62,000 chemicals used in 
commerce since EPA began reviewing chemicals in 1979. Additionally, GAO 
found that EPA's reviews of new chemicals provide limited assurance 
that health and environmental risks are identified before the chemicals 
enter commerce. Finally, even when EPA has toxicity and exposure 
information on chemicals showing significant health risks, GAO found 
that the Agency has difficulty overcoming the legal hurdles needed to 
take action. The public health implications of this report were 
highlighted by another study issued this week, finding that babies in 
the U.S. are exposed to hundreds of synthetic chemicals, even before 
birth. TSCA has not been updated since 1976. If you are confirmed as 
Deputy Administrator, will you work with Congress to enhance TSCA to 
give EPA better tools to protect children from chemical exposure?
    Response. I am very committed to protecting the environment and the 
health of citizens--young and old--of this country by ensuring that 
needed information is available on the hazards of chemicals. If 
confirmed, I look forward to working with the Committee and others in 
Congress on this issue.
                                 ______
                                 
       Responses by Marcus Peacock to Additional Questions from 
                           Senator Lautenberg
    Question 1. I'm sure you are familiar with the case of Phil Cooney, 
a non-scientist lawyer at the White House who altered science reports 
on climate change. Do you believe these kinds of alterations of science 
documents by the White House are appropriate?
    Response. The documents you reference relate to management of the 
Federal climate science program, and were reviewed following the same 
interagency review process that is used on other documents of this 
type. Approximately 15 Federal agencies were involved on the 
interagency review process which includes both scientists, policy 
specialists and senior managers.
    Phil Cooney was both a policy specialist and a senior manager 
involved in the development and conduct of our climate change policies 
and activities. As someone with expertise on issues relating to climate 
change and the environment, I believe his participation in the review 
was appropriate.

    Question 2. I am very concerned about a new plan that EPA is 
developing on ``risk assessment''. When you visited my office a few 
weeks ago you promised to get back to us with information on that plan. 
Since you haven't done so, could you tell me here what you have learned 
about it?
    Response. I have looked into the issues you raised, and my response 
indicates what I have learned about this issue.
    There are two major purposes of the proposed changes: (1) to 
identify and resolve major scientific issues early in the assessment 
development process and thereby facilitate high quality and timely 
completion of assessments; and (2) to increase transparency in the 
assessment development process and thereby assure full and open 
consideration and scientific review of relevant information.
    EPA is planning to hold a public workshop on the proposed new 
process to solicit comments, suggestions and concerns from the IRIS 
user community and stakeholders. The workshop will be announced in the 
Federal Register and on the IRIS web site.

    Question 3. From my observations this administration 
``collaborates'' only when a state agrees with it. As just one example, 
during the ``Clear Skies'' debate many states, including New Jersey, 
fought for the ability to regulate facility emissions to meet Clear Air 
Act's health standards. The administration refused to listen. Is that 
the kind of collaboration we could expect if you are confirmed?
    Response. Collaborative problem solving is an environmental 
protection approach that I know current EPA Administrator Steve Johnson 
is committed to and is encouraging. EPA has a long history of helping 
multiple parties to work cooperatively with the Agency to find 
environmental solutions--in watersheds, in communities (e.g., 
Brownfields), and for some ecosystems such as the Great Lakes and 
Chesapeake Bay. Together with strong regulatory and enforcement 
programs, collaborative approaches can be an effective tool for some 
types of environmental problems. I believe that EPA, under the 
leadership of Administrator Johnson, will continue to look for areas 
where collaborative approaches can achieve beneficial environmental 
results.
                                 ______
                                 
 Responses by Marcus Peacock to Additional Questions from Senator Boxer
    Question 1. Do you agree that the recommendations of the NAS on 
human pesticide testing, the Nuremberg Code and Declaration of Helsinki 
and the Common Rule--at a minimum--should be specifically incorporate 
in any EPA regulation on intentional human dosing studies with 
pesticides?
    Response. Yes, I think it is important for EPA to require 
investigators who intend to submit human clinical trial research to EPA 
meet high ethical standards.

    Question 2. EPA estimates that the funding shortfall for wastewater 
treatment and pollution prevention projects as of January 1, 2000 was 
$181 billion, and that this shortfall will grow to $388 billion over 
the next 20 years. Before you are confirmed, please describe for me the 
steps that you will take to address harms to public health and 
environmental quality-including fish consumption advisories, closed 
beaches and degraded aquatic and wildlife habitat--that will result 
from a lack of sufficient funding in later fiscal years?
    Response. In 2002, EPA issued The Clean Water and Drinking Water 
Infrastructure Gap Analysis. The analysis estimated the funding gap 
between projected infrastructure spending needs and current spending 
for the water industry. EPA undertook the analysis to develop a solid 
basis for understanding the magnitude of the funding gaps potentially 
facing wastewater systems.
    As a country, we have made remarkable progress over the years in 
protecting and restoring our waters and wetlands. We have much left to 
do. EPA is committed to meeting the challenge and to accelerating the 
pace. To support sustainable wastewater infrastructure, EPA continues 
to provide annual capitalization grants to the Clean Water State 
Revolving Funds (CWSRF). The CWSRF has been one of the most successful 
and cost-effective infrastructure financing programs in the Federal 
Government's history. The Agency has provided, through fiscal year 
2004, nearly $23 billion to capitalize the CWSRF, nearly triple the 
authorization level of $8.4 billion. This Federal investment, when 
combined with State contributions and other funding sources, has 
allowed the CWSRF to support $48 billion in important water quality 
projects.
    In addition, EPA is addressing the funding gap by focusing on the 
``four pillars'' of sustainable water infrastructure. The four pillars 
that are essential for sustainable infrastructure are: better 
management, water efficiency, full-cost pricing, and watershed-based 
approaches. Better management means assuring that utility managers have 
the suite of tools they need. These tools include asset management, 
environmental management systems, cost-effective technologies, capacity 
building, and other approaches used by the most successful utilities.
    Another pillar in ensuring sustainable infrastructure is to 
encourage efficient use of water. Although EPA's focus is water 
quality, not water quantity, EPA increasingly finds that water quantity 
and quality issues are inextricably linked. EPA will continue to 
promote water efficiency through such efforts as a voluntary program to 
identify and promote water-efficient products.
    The third pillar is full-cost pricing of water supply and 
wastewater treatment. Pricing that seeks to recover all of the costs of 
building, operating, and maintaining a system is absolutely essential 
to achieving sustainability. Conservation rates and seasonal rates can 
further help reduce peak water demand, and valid concerns about equity 
can be addressed through ``lifeline rates'' for the poor.
    The final pillar in assuring sustainable water infrastructure is an 
important water program priority in itself. EPA is committed to working 
co-operatively on a watershed basis with our State, Tribal, and other 
partners to protect human health and restore water quality nationwide. 
About a decade ago, EPA embraced the watershed approach, focusing on 
multi-stakeholder and multi-program efforts within hydrologically 
defined boundaries, as a better way to address water quality problems. 
Today, we are increasingly managing water quality on a watershed basis.

    Question 3. On June 7, 2005, the NAS and the heads of ten other 
national scientific institutions stated that ``there is strong evidence 
that significant global warming is occurring,'' that ``[i]t is likely 
that most of the warming in recent decades can be attributed to human 
activities'' and that ``scientific understanding of climate change is 
now sufficiently clear to justify nations taking prompt action.'' 
Before you are confirmed, please describe whether and how you will take 
specific steps to ensure we will reduce greenhouse gas emissions 
promptly and develop a U.S. policy recommendation consistent with the 
NAS document.
    Response. The President's approach to climate change is informed by 
the best available science, including the 2001 NAS report he requested 
on what is known and unknown about climate science. The Bush 
Administration recognizes that the surface of the Earth is warmer and 
that an increase in greenhouse gases caused by humans is contributing 
to the problem. However, significant uncertainties in climate science 
remain and the Administration is working aggressively to address them.
    The Administration's program first sets the U.S. on a path to slow 
the growth of greenhouse gas emissions, and--as the science justifies--
to stop and then reverse that growth. The President has launched a 
broad portfolio of domestic and international initiatives to develop 
and delploy cleaner, and more efficient energy technologies through a 
broad range of programs, including voluntary, market-based, and 
mandatory measures. The President's climate change policies also 
promote technological innovation and reduce harmful air pollution in 
the U.S. and throughout the world while improving our energy security.
    I believe that these actions--which at EPA focus on voluntary 
programs like Energy STAR, Smartway Transport, Climate Leaders and the 
international Methane to Markets Partnership--are a strong and 
effective response to the challenge we face.

    Question 4a. On June 8, 2005, the New York Times reported that 
political officials in the Bush Administration edited scientific 
information in government reports on climate change to downplay the 
connection between greenhouse gas emissions, climate change and the 
adverse consequences of climate change. This is not the first time that 
those types of problems have arisen in the Bush Administration. This 
type of political interference with science is a violation of the core 
principles of scientific integrity and violates the public trust in our 
government to base its policies on accurate and independent 
information.
    Please describe for me whether you agree that politics should not 
be a factor in determining what scientific advice the EPA provides?
    Response. I want to assure you that this Administration emphasizes 
the importance of using sound, credible, peer-reviewed science to 
inform its policies and decisions. EPA follows rigorous peer-review 
standards for all of its scientific products to ensure the soundness 
and credibility of their results.
    The Bush Administration supports sound science and has made a 
strong commitment to climate change science. In 2002, the President 
established the U.S. Climate Change Science Program as part of a new 
cabinet-level management structure to oversee public investments in 
climate change science and technology. CCSP coordinates and integrates 
scientific research on global change and climate change sponsored by 13 
participating departments and agencies of the U.S. Government.
    In July 2003, CCSP published the Strategic Plan for the U.S. 
Climate Change Science Program. The Strategic Plan responds to the 
President's direction that climate change research activities be 
accelerated to provide the best scientific information to support 
public discussion and decisionmaking on climate-related issues. The 
Administration's commitment to sound science is exemplified by the 
rigorous public peer review to which it subjected earlier drafts of the 
CCSP Strategic Plan. A major public workshop was held in December 2002 
to review the draft, and the National Research Council was also 
commissioned to review the draft and final versions of the Plan. The 
NRC said the Plan ``articulates a guiding vision, is appropriately 
ambitious, and is broad in scope.'' Also, the Plan calls for the 
production of 21 Synthesis and Assessment Reports, focusing on some of 
the highest priority scientific questions being addressed by the CCSP. 
The 21 Reports will be produced through a FACA process, with rigorous 
peer review, to ensure their balance, credibility, and scientific 
soundness.

    Question 4b. Please describe the steps you will take to ensure that 
political appointees and industry representatives do not alter 
scientific information in government reports, memos and other documents 
on climate change and other matters before EPA?
    Response. As I noted above, EPA emphasizes the importance of sound, 
credible, peer-reviewed science in all of its programs. I also am 
committed to an open and transparent process in the development and in 
the review of EPA's scientific documents that are prepared to inform 
decisionmakers. Consistent with the Information Quality Act guidelines, 
comments EPA receives from stakeholders (e.g., the regulated community, 
environmental organizations, private citizens) are made publicly 
available as the scientific documents are developed for subsequent use 
in setting Agency policy or in developing regulations. I want to assure 
you that if confirmed as the Deputy Administrator of EPA, I will insist 
that only credible, peer-reviewed science be used in informing policy.

    Question 4c. Please describe for me the steps that you will take to 
protect scientists from being asked to violate their scientific 
integrity by altering or suppressing scientific data?
    Response. I will not ask any scientist at EPA or any other agency 
to violate their scientific integrity by altering or suppressing 
scientific data. Indeed I am eager to have the best and most credible 
science as we deliberate on what should be the appropriate policy. I 
also know that the scientific staff at EPA, as well as other agencies 
are incredibly committed to scientific integrity. They also know that 
as scientists, they have an important function to inform policymakers 
but the call as to the appropriate policy is the responsibility of the 
Agency's leadership.

    Question 5. Please work with EPA to ensure that the agency provides 
me with material including any written documents related to any 
assessment, before you are confirmed, which EPA has or is conducting of 
potential concerns by employee regarding influence from political or 
industrial interests?
    Response. I am not familiar with the material you mention in your 
question. If confirmed, I will look into the existence of this 
material.

    Question 6. Please work with EPA to provide me with EPA's new draft 
assessment for MTBE, before you are confirmed, which recent trade 
reports state concludes that MTBE is a ``likely'' carcinogen. Please 
include any comments supplied to the agency and a list of all 
individuals, government offices and other entities, including non-
governmental entities, which have seen the document or have commented 
on the document.
    Response. It is my understanding that the draft MTBE assessment is 
still early in this process and has not received internal nor external 
scientific peer review and thus it is not ready to be publicly 
released.
                                 ______
                                 
 Responses by Marcus Peacock to Additional Questions from Senator Obama
    Question 1. Title 15, Section 2682(c)(3) of the U.S. Code requires 
EPA to promulgate regulations to reduce the risk of lead exposure 
during renovation and remodeling activities by October 28, 1996. By 
what date, will EPA issue these regulations?
    Response. As I understand it, the Agency will announce by the end 
of this year a comprehensive program, which will include a proposed 
regulation, as well as an extensive education and outreach campaign 
aimed at the renovation, repair, and painting industry and the 
consumer.

    Question 2. Following his nomination hearing in April, I asked 
Stephen Johnson when EPA would issue a proposed rule. He responded: 
``[T]he Agency is developing an education and outreach campaign that 
will convey the benefits of the use of lead-safe work practices to 
minimize both workers' and homeowners' exposure to lead dust during 
renovation and remodeling. EPA is also targeting outreach efforts to 
expand consumer awareness. . . . EPA plans to launch this material by 
this fall and will evaluate the effectiveness of this effort and will 
determine what additional steps may be necessary, including 
regulation.'' Does EPA believe that such a voluntary approach satisfies 
the requirement of 15 U.S.C. Sec. 2682(c)(3)? If so, what is the basis 
for EPA's belief that a voluntary approach satisfies the requirement of 
15 U.S.C. Sec. 2682(c)(3)?
    Response. The Agency is not relying solely on a voluntary program 
based on education and outreach, rather it will be a component of a 
comprehensive program to ensure the use of lead-safe work practices by 
the renovation, repair and painting industry. This comprehensive 
program will include a regulation. In addition, the Agency intends to 
launch an extensive education and outreach campaign designed to assist 
the Agency in reaching this unique industry of small businesses and 
individuals. EPA will also target outreach efforts to expand consumer 
awareness, which is critical to creating demand for the use of lead-
safe work practices. The Agency will work closely with all interested 
stakeholders in the coming months as we move toward announcement of 
this comprehensive lead safe work practices program.
    As the number of lead-poisoned children continues to decline, it is 
critical that the Agency focus its programs on the housing, the 
activities and the exposures to reach the children of concern. EPA is 
in the process of assessing the costs and benefits of approaches for 
controlling the risks from lead contaminated dust created by 
renovation, repair and painting activities in the target homes. EPA 
currently estimates that there are 1.3 million children living in homes 
where these types of renovation and repair activities take place every 
year.

    Question 3. An EPA study has projected significant benefits from a 
regulation mandating lead-safe renovation and remodeling practices. Has 
EPA conducted a study to evaluate the effectiveness of a voluntary 
approach?
    Response. The Agency is not relying solely on a voluntary program 
based on education and outreach, rather it will be a component of a 
comprehensive program to ensure the use of lead-safe work practices by 
the renovation, repair and painting industry. This comprehensive 
program will include a regulation. In addition, the Agency intends to 
launch an extensive education and outreach campaign designed to assist 
the Agency in reaching this unique industry of small businesses and 
individuals. EPA will also target outreach efforts to expand consumer 
awareness, which is critical to creating demand for the use of lead-
safe work practices. The Agency will work closely with all interested 
stakeholders in the coming months as we move toward announcement of 
this comprehensive lead safe work practices program.
    As the number of lead-poisoned children continues to decline, it is 
critical that the Agency focus its programs on the housing, the 
activities and the exposures to reach the children of concern. EPA is 
in the process of assessing the costs and benefits of approaches for 
controlling the risks from lead contaminated dust created by 
renovation, repair and painting activities in the target homes. EPA 
currently estimates that there are 1.3 million children living in homes 
where these types of renovation and repair activities take place every 
year.

    Question 4. What, if any, scientific evidence does EPA have to 
indicate that a voluntary approach would protect as many children from 
lead poisoning as would a regulatory approach?
    Response. The Agency is not relying solely on a voluntary program 
based on education and outreach, rather it will be a component of a 
comprehensive program to ensure the use of lead-safe work practices by 
the renovation, repair and painting industry. This comprehensive 
program will include a regulation. In addition, the Agency intends to 
launch an extensive education and outreach campaign designed to assist 
the Agency in reaching this unique industry of small businesses and 
individuals. EPA will also target outreach efforts to expand consumer 
awareness, which is critical to creating demand for the use of lead-
safe work practices. The Agency will work closely with all interested 
stakeholders in the coming months as we move toward announcement of 
this comprehensive lead safe work practices program.
    As the number of lead-poisoned children continues to decline, it is 
critical that the Agency focus its programs on the housing, the 
activities and the exposures to reach the children of concern. EPA is 
in the process of assessing the costs and benefits of approaches for 
controlling the risks from lead contaminated dust created by 
renovation, repair and painting activities in the target homes. EPA 
currently estimates that there are 1.3 million children living in homes 
where these types of renovation and repair activities take place every 
year.

    Question 5. What is the projected cost of EPA's voluntary approach 
to encourage contractors to use lead-safe work practices?
    Response. The Agency is not relying solely on a voluntary program 
based on education and outreach, rather it will be a component of a 
comprehensive program to ensure the use of lead-safe work practices by 
the renovation, repair and painting industry. This comprehensive 
program will include a regulation. In addition, the Agency intends to 
launch an extensive education and outreach campaign designed to assist 
the Agency in reaching this unique industry of small businesses and 
individuals. EPA will also target outreach efforts to expand consumer 
awareness, which is critical to creating demand for the use of lead-
safe work practices. The Agency will work closely with all interested 
stakeholders in the coming months as we move toward announcement of 
this comprehensive lead safe work practices program.
    As the number of lead-poisoned children continues to decline, it is 
critical that the Agency focus its programs on the housing, the 
activities and the exposures to reach the children of concern. EPA is 
in the process of assessing the costs and benefits of approaches for 
controlling the risks from lead contaminated dust created by 
renovation, repair and painting activities in the target homes. EPA 
currently estimates that there are 1.3 million children living in homes 
where these types of renovation and repair activities take place every 
year.

    Question 6. At the July 14, 2005, hearing, you indicated your 
belief that the reason that regulations had not yet been promulgated is 
because of the difficulty in creating enforceable rules against small 
contractors. Why would a lead regulation that applies to small 
contractors be any different from countless other EPA regulations that 
apply to small businesses, such as dry cleaners?
    Response. The renovation, repair, and painting industry is 
comprised almost entirely of small businesses and individuals--roughly 
a quarter of a million businesses in the U.S. provide professional 
renovation, repair, and painting services, employing approximately 1.7 
million workers. EPA initially examined several regulatory approaches 
to dealing with the risks of lead-based paint in renovation, repair, 
and painting activities. The Agency's preliminary analysis indicated 
that the annual costs of these regulations could exceed $1 billion.
    These significant costs would be borne by small businesses, 
consumers, and households. This, combined with the challenges of 
enforcing against small businesses and individuals, led the Agency to 
investigate a range of options in an effort to identify an approach 
under the law that would not disproportionately burden America's small 
businesses. However, after careful consideration of a number of 
approaches, including a voluntary program, the Agency determined that a 
combination program that includes regulation, training, educating and 
outreach would provide the most effective approach to ensuring the use 
of lead-safe work practices by this industry. When the Agency issues a 
regulation that impacts small businesses and individuals, the Agency 
significantly increases its compliance assistance efforts, which will 
also be the case when this rule takes effect.
                                 ______
                                 
       Responses by Marcus Peacock to Additional Questions from 
                           Senator Lieberman
    Question 1. I believe that in your years at OMB, you were a 
significant contributor to formulating the PART methodology for 
evaluating executive branch programs and offices.
    EPA's Acid Rain program was rated only ``moderately effective'' in 
the last PART scoring exercise. I assume you must also know that the 
acid rain program has been highly effective in achieving the emissions 
reductions required under the Clean Air Act, while doing so at far-
below-predicted costs to industry and also at low cost to the EPA 
itself. According to OMB's Thompson Report, the program is producing 
over $70 billion in health benefits every year; these benefits are at 
least 40 times its costs. I assume that there are not all that many 
Federal programs that can claim achievements that are quite so high-
leverage. Given that record, it is surprising that OMB rates the 
program as only ``moderately successful''. Since the results of the 
program are so well-documented, the rating itself raises questions 
about OMB's approach to rating programs by PART scores.
    Can you explain the discrepancy between the benefit and cost 
results for the acid rain program and the modest PART score the program 
received?
    Response. The PART is a questionnaire of approximately 30 questions 
that is used to determine if a Federal program is getting results and, 
if not, why not. The PART produces an overall rating for each program 
but it is most helpful in diagnosing strengths and weaknesses in a 
program and helping formulate specific recommendations that are 
expected to improve the program. In this way, it looks at a much 
broader range of program characteristics than just the current costs 
and benefits of the program. The expectation would be that 
implementation of the recommendations would result in a program that is 
more efficient than the status quo.
    In the case of the Acid Rain program the PART resulted in an 
overall rating of ``moderately effective.'' This is a relatively high 
rating. To date, no EPA program has achieved a higher rating. 
Relatively few programs governmentwide have achieved the highest rating 
of 'effective.'
    Despite a relatively high rating, the Acid Rain PART indicates the 
program could be improved if two recommendations are implemented: (1) 
The program should develop and track efficiency measures (which it 
currently does not track) and such measures should include the full 
cost of implementing the program, not just the Federal share, and (2) 
statutory requirements that limit the scope of the program, such as 
maximum emissions reduction targets and the exemption of certain 
facilities, should be removed. The completed PART for this program and 
all of the other EPA programs that have been recently evaluated can be 
found at http://www.whitehouse.gov/omb/budget/fy2006/pdf/ap--cd--rom/
part.pdf
    I was the lead for the President's Budget and Performance 
Integration Initiative when the Program Assessment Rating Tool (PART) 
was created. I am very proud of my association with this effort. As a 
sign of its success, the PART is now being copied by State governments, 
such as Kentucky and California, and by other countries, such as Asia 
and Scandinavia. The PART is also a finalist for Harvard University's 
prestigious ``Innovations in American Government Award.'' The winners 
will be announced later this month.

    Question 2a. Transparency in the Regulatory Review Process.-- 
Executive Order 12866, which this Administration has said governs its 
process for reviewing proposed and final regulations, requires OMB to 
comply with certain requirements to improve the transparency of the 
regulatory development process, such as disclosing relevant information 
regarding any communications with outside parties while a regulation is 
under review by OMB. These requirements are designed in part to ensure 
that the public knows whether people outside the government are sharing 
views with OMB about regulations as they are being reviewed, and to 
provide the public with information about the changes made to a rule as 
a result of the inter-agency review process.
    Increasingly, the Agency is providing OMB with ``informal'' copies 
of rulemaking packages--which, I gather, does not trigger the 
requirements of EO 12866, and making a ``formal'' submission to OMB 
only very late in the review process--sometimes only days before a rule 
is signed. I am concerned that this practice of receiving ``informal'' 
rulemaking packages is resulting in either OMB or the Agency 
circumventing the transparency requirements of the Executive Order with 
the effect of creating a back door for certain stakeholders to 
influence the regulatory process without any public record of their 
involvement.
    Could you tell me why the Agency and OMB are relying so heavily on 
this ``informal'' process whether you will support a continuation of 
this practice if you are confirmed?
    Response. I have not participated in the ``significance'' 
determinations under EO 12866. This activity is the responsibility of 
Office of Information and Regulatory Affairs. If I am confirmed, I 
would be happy to look more closely at this process.

    Question 2b. I have not reviewed the logs OMB is required to keep 
on review of regulatory actions. When OMB has a regulatory package that 
has been submitted ``informally'', do you know whether it logs the 
dates and names of individuals outside the government who are involved 
in any substantive communication with OMB about the regulation as it is 
required to do once a regulatory package is submitted formally?
    Response. I am not aware of what items OMB's Office of Information 
and Regulatory Affairs dockets. If I am confirmed, I would be happy to 
look more closely at this process.
    In a similar recognition of the importance of a transparent 
process, in Section 307(d) of the Clean Air Act, Congress required EPA 
to place in the docket all drafts of proposed and final rules (and 
accompanying documents) sent to OMB for interagency review and ``all 
written comments'' on those drafts by other agencies.

    Question 2c. On a regulatory package that has been sent to OMB for 
review, if someone from OIRA or another agency, rather than sending 
comments in writing to EPA, were to dictate changes to draft preamble 
or regulatory text to EPA staff with the understanding that EPA staff 
would incorporate these changes, it seems to me that would be a 
circumvention of these provisions rather than compliance with them. Do 
you agree?
    Response. I have not participated in implementing Section 307(d) of 
the Clean Air Act related to OMB review. As a result, I am not aware of 
what items are docketed.

    Question 2d. If so, will you direct EPA staff that, if they receive 
changes to text in a Clean Air Act rulemaking package orally rather 
than in writing, they are to write the comments down, identify who made 
the comments, and then ensure that they are placed in the docket at the 
appropriate time?
    Response. If confirmed, I will work with EPA staff and my 
colleagues at OMB to uphold the important transparency goals reflected 
in Section 307(d).
                               __________
Statement of Susan P. Bodine, Nominated for Assistant Administrator for 
            the Office of Solid Waste and Emergency Response
    Mr. Chairman, Senator Jeffords and distinguished members of the 
Committee, thank you for the privilege of coming before you today as 
the nominee for the position of Assistant Administrator for the Office 
of Solid Waste and Emergency Response. I'm honored that President Bush, 
Administrator Johnson and this Committee are considering me for this 
position.
    I am proud to introduce my husband, David Bodine, and my 2 sons 
Christopher and Steven. I would also like to thank Chairman Duncan and 
my many colleagues for their support and friendship.
    I have worked on environmental issues for my entire 17-year 
professional career, first as a practicing attorney and than as a 
counsel to the Water Resources and Environment Subcommittee of the 
House Committee on Transportation and Infrastructure.
    In private practice, I learned the substance of our environmental 
laws. But, I also learned from experience that the best way to approach 
a cleanup problem was from a technical and engineering perspective. I 
found it most rewarding to work on cases where the parties were willing 
to get all the scientists in a room to work out the most cost-effective 
way of cleaning up hazardous waste or a Superfund site.
    I also found it very rewarding to work with clients to keep them in 
compliance with the law. This was challenging. Many environmental 
regulations, particularly RCRA regulations, are extremely complex.
    When I moved to the Hill to work on the staff of the House 
Transportation and Infrastructure Committee, I kept the same objectives 
and the same approach: focus on the outcome a clean environment. And, 
try to ensure that the laws that are established to achieve this 
outcome are clear, understandable, and workable.
    It is my experience that even when an issue is contentious or 
complex, if you start by identifying a goal it becomes much easier to 
find common ground. Once a common goal is established, reaching 
agreement becomes much more likely.
    As this Committee knows, this was the process used to develop the 
Small Business Liability Relief and Brownfields Revitalization Act, 
which became law in January 2002. To reach agreement on title I of that 
Act, environmental and business groups had to agree that liability 
against small business owners for municipal solid waste did not 
facilitate cleanups. To reach agreement on title II of that Act, 
municipal groups, developers and environmental groups all had to agree 
that stimulating brownfields redevelopment was an important goal, and 
that it was acceptable to revise Superfund liability to achieve that 
goal.
    This process also was used to develop the Great Lakes Legacy Act of 
2002. Both the Sierra Club Great Lakes Program and the Council of Great 
Lakes Industries had reached the conclusion that something had to be 
done to create incentives and leverage other programs to accelerate 
cleanup of the Great Lakes Areas of Concern. The result was that 
legislation.
    Similarly, in 2000, when Congress started work on beach monitoring 
issues, environmental groups and States had very different views about 
how to create beach water quality monitoring programs. By bringing 
environmental groups, States, and EPA together, Congress was able to 
formulate legislation that greatly improved beach water quality 
monitoring, without placing an unfunded mandate on States.
    EPA employed this approach when it developed its Superfund 
Administrative Reforms, beginning in 1995. These reforms were based on 
the goal of making Superfund cleanups more cost-effective and timely. 
To achieve this goal, the Agency reached a consensus with stakeholders 
that not every site had to be cleaned up to background levels. Taking 
future land use into account and focusing on principal threats has 
allowed EPA to help bring more sites back into productive use.
    If confirmed by the Senate, I would take the same consensus-
building approach to my new duties at the Office of Solid Waste and 
Emergency Response. I know we share the goal of protecting the 
environment. I know we share the goal of seeing hazardous waste sites 
cleaned up more quickly. I know we share the goal of making 
environmental regulations clear and understandable.
    If confirmed by the Senate, I will work with you to on a bi-
partisan basis to find sustainable solutions to achieve these goals. 
American citizens expect and deserve both a thriving economy and a 
clean, safe and secure environment.
    In particular, I am very excited about the opportunity to work with 
Administrator Johnson as a member of his team as we accelerate the pace 
of environmental protection; use environmental protection as a driving 
force of economic growth; promote a culture of environmental 
responsibility; and continue to ensure compliance of our nation's 
environmental laws. To meet this challenge, EPA must not only implement 
and enforce the laws enacted by Congress, it must be innovative, form 
partnerships, and leverage private investment.
    In closing, I look forward to any questions you or your colleagues 
may have. Thank you. I ask that my statement be placed in the record in 
its entirety.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

       Responses by Susan P. Bodine to Additional Questions from 
                            Senator Jeffords
    Question 1. One of the roles of Congress is to perform 
congressional oversight. Yet it is difficult to discuss whether human 
health is being protected or whether the Superfund program is getting 
the resources it needs to clean up abandoned toxic waste sites if EPA 
refuses to provide the site specific documents regarding cleanup status 
and remediation needs. In short, Congress needs information regarding 
the on-going remedial, removal and pipeline projects that are not 
sufficiently funded to date and the dollar shortfall, based on the 
requests of the EPA Regions. Will you work to ensure that EPA provides, 
before confirmation, all of the information that I requested with 
Senator Boxer in our October 20, 2004, letter regarding the impact of 
the Superfund's cleanup slowdown?
    Response. I have a great appreciation for the importance of 
congressional oversight work, and if confirmed will work with the 
Committee to facilitate access to Agency information. Agency staff has 
advised me that the questions in the October 2004 letter seem based on 
an assumption that EPA funding process involves separate Headquarters 
and Regional estimates of costs. All Superfund remedial action funding 
decisions are made in close coordination with EPA regional offices 
after a careful review of each project. EPA Headquarters and the 
regions continue to work together extensively throughout the year to 
balance the Superfund program's human health and environmental 
protection responsibilities with both individual site needs and overall 
national priorities. Through the collaborative process, EPA 
Headquarters Superfund program managers decide onsite and project 
funding levels that make the best use of the funds that they have. EPA 
staff advises me that the agency has piloted approaches for identifying 
``out year'' costs for some large remedial projects, and that 
information will be provided to the Committee.

    Question 2. As a mature program, Superfund works fairly well at 
sites with potentially responsible parties capable of performing the 
cleanup. The heart of the Superfund program, however, is to ensure that 
communities plagued with abandoned toxic waste dumps are able to get 
Federal resources to address the contamination immediately and remove 
the toxic blight. Given the decreased resources available to the 
program, what will you do as Assistant Administrator to accelerate the 
cleanup of these abandoned sites?
    Response. I intend to ensure that, to the extent practicable, 
Federal funding is allocated based on risk. To use Federal funding more 
effectively, I will pursue a number of actions to improve the 
efficiency and effectiveness of Superfund remedies at these sites and 
to closely manage site specific costs. With regard to remedy 
effectiveness, I will ensure that the following measures are taken. I 
will work with the Regions to improve assessment of contamination at 
these sites. I will ensure third party reviews of remedies, using the 
Agency's Contaminated Sediments Technical Advisory Group to review 
contaminated sediment cleanups; the National Remedy Review Board to 
review all remedies expected to cost $25M or more; and Value 
Engineering reviews of remedy design and construction at complex sites.
    In addition, I will ensure that EPA recovers unspent funds from 
contracts, grants, cooperative agreements, interagency agreements and 
state superfund contracts and agreements. Since 2002 the Agency has 
recovered more than $550 million that has been used to fund remedial 
actions, removals, enforcement, pipeline, and management and support. 
Finally, I intend to ensure that opportunities are not overlooked to 
augment Federal dollars with private funding from volunteers who may be 
willing to expend private funds on the cleanup of sites that have 
redevelopment potential.

    Question 3. The hazardous waste program was designed to create a 
``cradle to grave'' management system to prevent mismanagement of 
dangerous wastes. EPA has proposed a definitional change to allow these 
hazardous wastes to evade the Federal safeguards if they are intended 
to be recycled. Many states are concerned that without minimal 
controls, such as tracking and financial assurance requirements, these 
rules will create a new wave of toxic waste dumps. As Assistant 
Administrator, would you finalize a rule that would allow million of 
pounds of hazardous waste to escape regulation without adequate 
assurances to prevent mismanagement?
    Response. The Nation's cradle-to-grave hazardous waste management 
system provides critical important public health and environmental 
protection, and indeed it has fundamentally changed the way hazardous 
waste is managed in this country. As Assistant Administrator, I would 
not support regulatory approaches that would allow unsafe management of 
hazardous wastes under the guise of recycling. At the same time, I 
believe we should be supporting legitimate and safe recycling, and we 
should make sure EPA's regulatory programs don't provide unnecessary or 
unwarranted disincentives to the safe reuse of industrial materials.

    Question 4. In your written remarks, you state that you are excited 
about the opportunity to join Administrator Johnson to ``use 
environmental protection as a driving force of economic growth.'' Like 
most environmental statutes, Superfund and RCRA are public health laws, 
not public works laws. Will you assure us that, as OSWER Assistant 
Administrator, real estate value will not play a role in whether a 
toxic waste site gets cleanup funds?
    Response. I will not allow real estate values to interfere with 
health or environmental decisions.

    Question 5. The community of Yerington, Nevada, has been exposed to 
dust blowing off mine tailings from the Anaconda Mine site for many 
years. This dust may be contaminated with radionuclides and metals that 
could cause serious health problems for nearby residents. What are 
EPA's plans to reduce the dangers created by exposing residents to this 
dust? The public can still access the Anaconda Mine site, which 
contains numerous hazards. What are EPA's plans and specific date for 
securing and restricting access to the site? When does EPA plan to host 
a public meeting to discuss the status of the cleanup of the Anaconda 
mite site?
    Response. I am not familiar with all of the details surrounding the 
Anaconda Mine site. I am however, committed, to looking into this 
further if confirmed.

    Question 6. Despite the growth of voluntary curbside collection, 
the recycling rates of many consumer commodities, such as plastic, 
aluminum and glass, is near historic lows. Companies are finding it 
increasingly difficult to obtain the quantity and the quality of the 
recycled feedstock they need to meet production demand. EPA recently 
acknowledged that the Agency does not expect to meet the nationwide 
recycling goal of 35 percent by 2005. As the Assistant Administrator of 
the Office of Solid Waste and Emergency Response, what steps will you 
take to ensure that EPA plays a leadership role in rejuvenating 
recycling in America?
    Response. EPA staff advises me that data show that the national 
recycling rate for 2003 was close to 31 percent. While it is true that 
the rate of recycling has slowed, it continues to increase slightly 
each year. Many factors influence the recycling rate, including local 
and state funding for recycling programs, prices of commodities 
recycled, availability of markets, improvements in technology, consumer 
behavior, etc. I am committed to working with our state and local 
governments to improve and reinvigorate the recycling message and 
ethic.

    Question 7. In responding to questions from me and Senator 
Lautenberg on Superfund, you suggested that the significant slowdown in 
the number of sites annually for which construction has been completed 
is in part due to the Bush Administration's emphasis on other sites in 
the Superfund pipeline. However, the number of remedial action 
construction starts during the first 4 years of the Bush Administration 
has averaged 58 per year, down 41 percent from the prior 8 years of the 
Clinton Administration, which averaged 98 new construction starts 
annually. In short, this Administration is making substantially less 
progress in completing construction of Superfund remedies or in 
starting new remedy construction at sites waiting on the National 
Priorities List. If confirmed as the Assistant Administration of EPA's 
Office of Solid Waste and Emergency Response, what specific steps will 
you take to reverse this trend and ensure that sites at all stages of 
the Superfund process are expeditiously cleaned up?
    Response. In my response to Senator Lautenberg's question, I was 
referring to my concern that in the past, more emphasis was placed on 
construction completion, so that less expensive sites were cleaned up 
first. EPA data on construction completions between 1993 and 2001 and 
their costs supports this conclusion. During this time period, 
construction at 659 sites was completed. Of the completed sites, 511 
had EPA costs of less than $5 million, 262 sites had EPA costs of less 
than $1 million, and 63 sites had no remedial action. It is my 
understanding that the need to focus on large, complex sites is now 
consuming significant EPA funds. If confirmed, I intend to ensure that, 
to the extent practicable, EPA prioritizes available Federal funding 
based on risk to public health and the environment. At the sites where 
there are PRPs, I intend to work with EPA's enforcement program to 
ensure that these sites are cleanup expeditiously using PRP funds. To 
date, over $22.8 billion in PRP funds have been committed to clean up.

    Question 8. The Leaking Underground Storage Tank (UST) program 
regulates the installation, maintenance and remedial activities related 
to underground storage tanks. EPA estimates that there are more than 
660,000 active USTs, and 125,221 backlogged cleanups at leaking UST 
sites. Leaking USTs are a major threat to the quality of our nation's 
groundwater, including a significant source of contamination from 
methyl tertiary butyl ether (MTBE). Will you work with EPA to provide, 
prior to confirmation, the latest data, including analysis of such 
data, on the technologies and practices that are best able to prevent 
releases from underground storage tanks?
    Response. I understand that EPA is preparing analyses of tank 
system performance of various technologies and practices. Two reports 
are being finalized, and EPA is prepared to brief you on the findings.
                                 ______
                                 
Responses by Susan P. Bodine to Additional Questions from Senator Boxer
    Question 1. Please work with EPA to provide me with any material 
that contains DoD statements informing EPA that the department does not 
intend to, or may not complete its cleanup obligations at the McClellan 
Air Force base Superfund site, including cleaning up contaminated 
groundwater?
    Response. It is my understanding that EPA has been in communication 
with the Air Force and that they are actively working together to meet 
their cleanup obligations. EPA staff reported that they have not 
located any documents in which the Air Force indicates that it does not 
intend to or may not meet its cleanup obligations. The issues currently 
under discussion are summarized in the Air Force's proposed plan and 
EPA's letter responding to the plan, both of which will be provided to 
the Committee.

    Question 2. Please work with EPA to provide me with material that 
describes the activities that EPA's will undertake to ensure that DoD 
completes its cleanup obligations at the McClellan Air Force base 
Superfund site?
    Response. Given the scope of the projects involved, the EPA OSWER 
staff has informed me that it will require at least 2 weeks to collect 
all the materials to fulfill your request. They plan to collect this 
information and provide it to you as soon as possible.

    Question 3a. EPA produced a proposed AAI rule that failed to meet 
the statutory criteria for determine whether an entity had in fact 
conducted AAI. Among other failings this proposed rule failed to ensure 
that: (1) a qualified environmental professional conducted the inquiry; 
(2) the inquiry included a visual inspection of the site; and (3) the 
investigations protected public health by substituting vague 
performance standards in lieu of the Brownfield law's established 
criteria and benchmarks.
    Please work with EPA to provide me with information that describes 
the status of the agency's rulemaking process?
    Response. EPA published a proposed rule that would establish 
Federal standards and practices for the conduct of all appropriate 
inquiries on August 26, 2004. A copy is attached. I have been informed 
that the Agency intends to publish a final rule within the next 6 
months.

    Question 3b. Please confirm whether you support and whether and how 
you will ensure that the final AAI rule is consistent with the criteria 
from the Brownfields law as described by the attached letter from 
Senators Jeffords and Boxer and Representatives Dingell, Solis and 
Pallone?
    Response. If I am confirmed prior to the publication of the final 
rule, I will ensure that it is consistent with statutory criteria.

    Question 4. The Nation's Brownfield law forbids EPA from providing 
financial assistance in the form of brownfield loans or grants to 
potentially responsible parties. Please work with EPA to provide me 
with information that describes any potentially responsible parties 
that received funds from the brownfield program?
    Response. For several years, EPA's annual appropriations act has 
made parties who purchase property prior to January 11, 2002, but who 
otherwise meet the definition of a prospective purchaser exempt from 
liability, eligible for grants even though they may technically qualify 
as a responsible party because of the purchase date.
    It is my understanding that panels review and screen applicants, 
based on specific information they provide in the application to ensure 
that no ineligible party receives funding. In the 2005 grant guidelines 
(and in all previous versions of these guidelines) since the passage of 
the Small Business Liability and Brownfields Revitalization Act of 
2002, an appendix attached to the guidelines lays out specifics 
regarding eligibility criteria.
    For community-wide or nonsite specific revolving loan fund grants, 
an additional screening occurs post-award, when sites are identified by 
the recipient, to ensure that no ineligible party receives grant funds.
                                 ______
                                 
       Responses by Susan P. Bodine to Additional Questions from 
                           Senator Lautenberg
    Question 1. Last September the Wall Street Journal, in an article, 
``Money Shortage Threatens Superfund,'' reported that the funding 
backlog for Superfund site clean-ups will be three-fourths of a billion 
dollars by next year. If current funding is adequate as you suggest--
what was the Wall Street Journal referring to?
    Response. It was not my intention to say that current funding was 
adequate. There are still sites remaining to be cleaned up so I believe 
additional funding is warranted. In order to clean up these sites, EPA 
must continue with the ``enforcement first'' has led PRPs to commit 
over $22.8 billion in cleanup work through fiscal year 2004. If 
confirmed, I also intend to prioritize the use of Federal funds by 
addressing the highest risk sites first. For less contaminated sites, 
there may be opportunities to find private sector partners who are 
willing to voluntarily invest private funds in cleanup because of 
redevelopment opportunities.

    Question 2. Superfund can't be described just in terms of numbers--
we are talking about people's lives, as we heard Sen. Baucus describe 
in referring to Libby, Montana. In 1997, you helped write H.R. 2727 
which would have weakened the cleanup standards at Superfund sites. Did 
you agree with those provisions? With 10 million kids living within a 
few miles of a Superfund site, do you now believe these standards 
should be weakened?
    Response. H.R. 2727 was introduced by the Chairman of the Water 
Resources and Environment Subcommittee, Rep. Sherwood Boehlert, on 
October 23, 1997. At that time I was a counsel to the subcommittee and 
I worked on Superfund issues. Title I of H.R. 2727 addressed remedy 
matters. This title did not weaken cleanup standards at Superfund 
sites. Rather, Chairman Boehlert's intent was to codify the remedy 
reforms that had been advanced by EPA as administrative reforms.
    Before introducing this legislation, Chairman Boehlert held 
hearings in the Subcommittee. On April 10, 1997, the EPA Acting 
Assistant Administrator for Solid Waste and Emergency Response, Timothy 
Fields, testified that, through its administrative reforms, EPA had 
achieved an approximately 20 percent cost reduction, on average, in the 
cost of cleaning up Superfund sites, while maintaining protection of 
human health and the environment. According to Mr. Fields, EPA achieved 
these cost reductions by using reasonable assumptions about current and 
future land use, by applying treatment primarily to hot spots (the 
highly mobile, highly toxic waste), and by using a combination of 
pumping and treating and natural attenuation for groundwater 
remediation. Mr. Fields also testified about cost reductions achieved 
by the National Remedy Review Board. Finally, Mr. Fields testified that 
it would be helpful for Congress to codify EPA's administrative remedy 
reforms. Subcommittee marked up H.R. 2727 on March 11, 1998, but did 
not reach consensus. The legislation was not taken up by the full 
Transportation and Infrastructure Committee.
    Chairman Boehlert continued to work on Superfund legislation and, 
in the following year, introduced another bill, H.R. 1300. With this 
legislation, Chairman Boehlert did achieve consensus within the 
Transportation and Infrastructure Committee, which ordered H.R. 1300 
reported by a vote of 69 to 2 on August 5, 1999. With respect to remedy 
selection, H.R. 1300 clarified the intent of H.R. 2727 by incorporating 
certain EPA guidance by reference, instead of attempting to restate the 
guidance. At this point in time, EPA has been operating under its 
remedy reforms for a number of years and they have not been challenged. 
Accordingly, it no longer appears that codification of EPA's 
administrative remedy reforms is necessary.

    Question 3. Placing technical decisions in the hands of scientists 
and engineers, such as how ``clean'' a Superfund site should be, is 
vital. These decisions must remain above politics. So, regarding EPA's 
recent internal discussions on risk assessment--would you support 
giving the regulated industry a bigger role in such technical 
decisions?
    Response. I strongly believe in using sound, credible, peer 
reviewed science to inform policies and decisions. In addition, I 
believe all stakeholders should be given the same opportunities to 
participate.

    Question 4. The Superfund program is of special importance to my 
State. We have 113 Superfund sites in New Jersey and many of them are 
underfunded. The GAO reports that program funding has fallen by 35 
percent in the last decade. The number of sites cleaned up has dropped 
dramatically and the Superfund Projects Manager in New Jersey tells me 
that sites take three-times longer to clean up than they used to 
because the funding just trickles in. As the administrator of the EPA's 
Superfund office, would you support the reinstatement of the Superfund 
tax, or some other funding source, to ensure that polluting industries 
help make up for these funding declines and in cleaning up the orphan 
sites?
    Response. I strongly support the ``polluter pays'' principle under 
the Superfund law. The success of the polluter pays principle is 
illustrated by the fact that historically 70 percent of Superfund sites 
are cleaned up by the parties responsible for hazardous waste, an 
average of $838 million per year to clean sites as mandated by EPA. A 
broader perspective shows that, over the history of the program, EPA 
has required responsible parties to spend more than $22.8 billion on 
cleaning up contaminated properties.
    EPA has always relied upon Congress to appropriate funds for the 
Agency to pay for cleanups at Superfund sites. Superfund program 
appropriations have remained relatively steady over the past 5 fiscal 
years at $1.3 billion to $1.5 billion. The fiscal year 2006 President's 
Budget Request continues to maintain steady funding for the program.
    I believe that the Agency is making significant progress in 
cleaning up Superfund sites. Unlike in previous years where smaller, 
less costly sites were targeted for cleanups, EPA is now addressing 
large and complex sites that present unique cleanup challenges. 
Cleaning up these sites requires a disproportionate share of Superfund 
money. As I understand it, the new projects that are not funded have 
been secured, often have had prior cleanup work and pose no immediate 
threat. I commit that, if confirmed, EPA will not put communities at 
risk and will continue to protect human health and the environment.

    Question 5. From my observations this administration 
``collaborates'' only when a state agrees with it. As just one example, 
during the ``Clear Skies'' debate many states, including New Jersey, 
fought for the ability to regulate facility emissions to meet Clear Air 
Act's health standards. The administration refused to listen. Is that 
the kind of collaboration we could expect if you are confirmed?
    Response. Collaborative problem solving is an environmental 
protection approach that I know current EPA Administrator Steve Johnson 
is committed to and encourages. EPA has a long history of helping 
multiple parties to work cooperatively with the Agency to find 
environmental solutions--in watersheds, in communities (e.g., 
Brownfields), in ecosystems such as the Great Lakes and Chesapeake Bay, 
and for some national issues. Together with strong regulatory and 
enforcement programs, collaborative approaches can be an effective tool 
for some types of environmental problems. I believe that EPA, under the 
leadership of Administrator Johnson, will continue to look for areas 
where collaborative approaches can achieve beneficial environmental 
results. My written testimony provides examples of some of the 
collaborative efforts I've been involved with during my tenure as a 
congressional Committee staffer. These are examples of the kinds of 
collaboration you can expect, if I am confirmed.
  Responses by Susan P. Bodine to Additional Questions from Senators 
                      Boxer, Lautenberg, and Obama
    Question 1. Please work with EPA to provide us with a complete list 
of Superfund sites in order of current health hazards.
    Response. I understand the Agency has a list that identifies 
priorities for new remedial start actions, which is considered 
enforcement sensitive. It is my understanding that the Committee has 
requested this list under separate cover, and that arrangements are 
being made to provide the list to the Committee. I have been informed 
that the Agency does not have a listing of all sites in rank order of 
current health hazards. I understand the Agency is working to prepare 
the list of 103 sites where human exposure is not confirmed as under 
control, categorized by sites with actual current exposure, current 
potential exposure, and future potential exposure. If confirmed, I will 
ensure that this commitment is met.

    Question 2. Please indicate how many children live near these sites 
and how they may be at risk. Please also indicate any daycares, 
schools, playgrounds or other similar places that are near these sites.
    Response. EPA staff advised me that they do not have the specific 
information requested on a site-by-site basis. EPA does have site-by-
site information available at http://www.epa.gov/superfund/sites/
cursites/index.htm. An example of such site-by-site information is 
attached. It is my understanding that the type of information you 
requested is not routinely obtained, but is the type of information 
sometimes collected at the local level when it would help address site 
specific risks.

    Question 3. Please indicate what emergency or other short-term 
steps may of taking at each site to address the risk and the cost to 
take those actions.
    Response. It is my understanding that EPA does not maintain a 
national data base that accurately and readily translates the actions 
described in each site profile into cost calculations.

    Question 4. Please provide the cost to clean up all 103 sites where 
EPA has determined ``human exposure is not under control.''
    Response. I understand that EPA has committed to compiling this 
information for all sites on the list for which EPA has available cost 
information. If confirmed, I will ensure that this commitment is met.

    Question 5. Please work with EPA to ensure that EPA experts, 
including regional staff, are available and authorized to answer any of 
our questions relating to Superfund, including human health risks, 
cleanup costs and funding shortfalls.
    Response. If confirmed, I will be pleased to ensure that 
appropriate EPA staff experts within OSWER are available to you. I 
cannot, however, provide blank, pre-authorization for EPA staff to 
speak on behalf of EPA or to represent EPA positions.

    Question 6. Please insure that the information provided includes a 
priority list of sites, like that provided to Senator Boxer while chair 
of the Superfund Subcommittee.
    Response. Please see response to Question 1, above.

    Question 7. Please work with EPA to ensure that we receive complete 
and detailed responses for each question in the Oct. 2004 letter that 
Senator Jeffords and Senator Boxer sent to then-Administrator Leavitt 
on Superfund, with updated responses to the present.
    Response. I have a great appreciation for the importance of 
congressional oversight work, and if confirmed will work with the 
Committee to facilitate access to Agency information. Agency staff has 
advised me that the questions in the October 2004 letter seem based on 
an assumption that EPA funding process involves separate Headquarters 
and Regional estimates of costs. All Superfund remedial action funding 
decisions are made in close coordination with EPA regional offices 
after a careful review of each project. EPA Headquarters and the 
regions continue to work together extensively throughout the year to 
balance the Superfund program's human health and environmental 
protection responsibilities with both individual site needs and overall 
national priorities. Through the collaborative process, EPA 
Headquarters Superfund program managers decide onsite and project 
funding levels that make the best use of the funds that they have. EPA 
staff advises me that the agency has piloted approaches for identifying 
``out year'' costs for some large remedial projects, and that 
information will be provided to the Committee.

    Question 8. Please work with EPA to provide us with detailed 
information to date on clean-up work and activities that will not be 
performed at sites that could use additional funding to initiate new 
projects or to expedite work at on-going projects on those sites. 
Please include all regional requests for funding?
    Response. EPA staff advises me that the Agency does not have 
separate Regional and Headquarters costs estimates for sites. Funding 
priorities are based on risk, but decisions at any point in time depend 
to a large degree on the readiness of the site for construction work. 
These decisions are made in close coordination with EPA regional 
offices after a careful review of each project. EPA Headquarters and 
the regions continue to work together extensively throughout the year 
to balance the Superfund program's human health and environmental 
protection responsibilities with both individual site needs and overall 
national priorities. Through the collaborative process, EPA 
Headquarters Superfund program managers decide onsite and project 
funding levels that make the best use of the funds that we have. Hence, 
the category ``could use additional funding'' has not been developed as 
a tool for program management. The agency has attempted some pilot 
approaches to provide longer range funding estimates, and I understand 
the Agency will provide this information to the Committee. If 
confirmed, I will ensure this commitment is met.

    Question 9. Please work with EPA to provide us with complete 
information to date on the on-going remedial projects that could use 
additional funding and the dollar shortfall for each project. Please 
provide all regional requests for funding.
    Response. Please see response to Question 8, above.

    Question 10. Please work with EPA to provide us with complete 
information to date on the removal projects that could use additional 
funding and the dollar shortfall for each project. Please provide all 
regional requests for funding.
    Response. EPA staff advises me that EPA does not allocate removal 
funds to the Regions site specifically so this information is not 
available. Each Region is given a portion of the total removal money 
each year based on the size of the Region and historical need. To 
prepare for potential shifting priorities or new/undiscovered risks, a 
portion of these funds is retained at Headquarters, and allocations are 
determined on a case-by-case basis by senior management.

    Question 11. Please work with EPA to provide us with complete 
information to date on the pipeline projects that could use additional 
funding and the dollar shortfall for each project. Please provide all 
regional requests for funding.
    Response. EPA staff advises me that EPA does not allocate pipeline 
funds to the Regions site specifically so this information is not 
available. Each Region is given a portion of the total appropriated 
pipeline money each year based on Regional workload and historical use, 
and they then determine how to allocate that money across projects.

    Question 12. Section 108(b) of the Comprehensive Environmental 
Response, Compensation and Liability Act required EPA to promulgate 
regulations-``not later than 5 years after December 11, 1980'', which 
required ``classes of facilities establish and maintain evidence of 
financial responsibility consistent with the degree and duration of 
risk associated with the production, transportation, treatment, 
storage, or disposal of hazardous substances.'' Please work with EPA to 
provide me with information that describes all activities that EPA has 
undertaken to meet this requirement to promulgate these regulations.
    Response. EPA staff advises me that although some work on this 
project occurred in the early 1980's, it was not pursued to completion, 
and the staff with whom I spoke are not certain of the details. 
Currently, the Office of Solid Waste and Emergency Response is 
analyzing information from CERCLIS and RCRA to identify the type and 
attributes of RCRA facilities that have had CERCLA funded expenditures. 
With this information, the Agency will review how to improve financial 
assurance, including the use of CERCLA 108(b) financial assurance 
authority. If confirmed, I plan to review the issue.
                               __________
Statement of Granta Y. Nakayama, Nominated for Assistant Administrator 
                for Enforcement and Compliance Assurance
    Mr. Chairman, Senator Jeffords, and distinguished members of this 
committee; it is an honor and pleasure to appear before you this 
morning as the nominee to be EPA's Assistant Administrator for the 
Office of Enforcement and Compliance Assurance. I am honored that 
President Bush and Administrator Johnson have invited me to join the 
Administration to improve public health and the environment in this 
great Nation. I am especially pleased to be joined today by my wife, 
Larrene.
    EPA has an important responsibility to protect the land, air, and 
water of our Nation. From the Agency's inception, compliance and 
enforcement has been an important cornerstone of EPA's programs to 
improve public health and the environment. Vigorous enforcement is a 
crucial tool that ensures the promise of our environmental statutes 
becomes an environmental reality. Administrator Johnson has expressed 
his commitment to a strong Federal enforcement program, and it is 
incumbent upon a nominee for this position to share that commitment.
    Just as Americans must be able to trust and rely on EPA to protect 
the land, air, and water, the Agency is committed to obtaining the 
support of citizens in communities throughout our country in protecting 
the environment. If confirmed, it will be my goal to work 
collaboratively to ensure that citizens can both more easily assist EPA 
in identifying potential environmental enforcement issues and can more 
easily receive assistance in complying with environmental regulations. 
The goal is to make a more ``user-friendly'' and efficient enforcement 
organization.
    To this end, my prior experiences have provided me with some unique 
preparation for this position. The Assistant Administrator for 
Enforcement and Compliance Assurance must have an understanding of 
environmental law. I am currently a partner at Kirkland and Ellis LLP 
in the environmental and product safety practice area. I joined the 
firm in 1994 after attending law school in the evening and graduating 
as the valedictorian. The first case I worked on as an attorney was an 
environmental enforcement matter brought by EPA's enforcement staff, 
and I have worked on similar matters ever since. Today, my practice 
includes advising clients on a daily basis regarding their 
responsibilities in complying with our nation's numerous environmental 
statutes. Since 1998, I have also served as an Adjunct Professor of Law 
at the George Mason University School of Law where I currently teach 
Environmental Regulation. Practicing and teaching environmental law has 
provided an appreciation of the challenges of understanding, complying 
with, and enforcing these complex statutes.
    Second, the nominee must be able to manage a large organization 
within the unique structure of the Federal Government. I started my 
career in the military, in the U.S. Navy. After being selected by ADM 
Rickover and serving for 5 years as an officer in the Navy Nuclear 
Propulsion Program, I then served for 8 years as a civilian manager 
reporting to ADM Rickover's successors. In that program, I oversaw the 
manufacture of the prototype reactor for the Seawolf submarine (SSN-
21). Later, I was a manager with responsibility for welding, non-
destructive testing, and quality assurance. During this formative 
period I observed first hand the high standards and dedication of the 
individuals who served in the Naval Nuclear Propulsion Program, and the 
results that could be achieved by a group of highly motivated Federal 
employees.
    Lastly, I have found that technical training and the ability to 
process technical information can provide additional insights into the 
practice of environmental law. My educational background, including a 
Bachelor of Science and Master of Science degrees from MIT in Nuclear 
Engineering, combined with my prior experience as a practicing nuclear 
engineer has provided a strong technical background. In my experience, 
a first-hand understanding of the technology and science at issue in 
the environmental area inevitably leads to a deeper and more realistic 
appreciation of the problems and challenges faced by both regulators 
and the regulated community.
    EPA is most fortunate to have a very dedicated, extremely capable 
staff in the enforcement and compliance assurance office. I have 
personally worked with many of them over the last decade and I have 
been uniformly impressed by their dedication and professionalism. They 
work extremely hard because they care about the environmental health of 
the Nation. As enforcers of the environmental laws, they must also 
adhere to the highest ethical standards. It is a group that any 
environmental attorney or engineer would be proud to join.
    If you should honor me by confirming my nomination, I look forward 
to working with the members and staff of this distinguished Committee, 
Administrator Johnson, and President Bush to make the environment 
better for all Americans. Thank you for the opportunity to appear 
before you today. I will be happy to answer any questions.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

        Response by Granta Nakayama to Additional Question from 
                            Senator Jeffords
    Question. The actual number of individuals working in the 
enforcement and compliance assurance office has essentially remained 
flat over the last 5 years at about 3,444 employees. Do you think that 
if the office were larger, there would be more enforcement actions and 
hence a cleaner environment?
    Response. I have not yet had the opportunity to analyze the 
staffing needs of OECA, but intend to do so, if confirmed. I intend to 
examine the resources to ensure that OECA is directing them to achieve 
the best environmental results and, if additional resources are 
warranted, to advocate for those needs during the budget process.
                                 ______
                                 
Responses by Granta Nakayama to Additional Questions from Senator Boxer
    Question 1a. The Fourth Circuit Court of Appeals ruled on June 15 
in United States v. Duke Energy Corp. that EPA cannot prohibit large 
annual increases in air emissions from power plants and other sources 
under New Source Review regulations, because NSR applies only to 
increases in hourly emission rates. The Fourth Circuit ruling was based 
on an interpretation of the statute that was apparently rejected by the 
D.C. Circuit Court of Appeals in a decision reached later that month in 
State of New York, et. al., v. USEPA. The Department of Justice would 
normally ask the Fourth Circuit for an ``en banc'' to review of its 
decision in Duke Power in light of the D.C. Circuit's ruling in New 
York v. EPA.
    Do you plan to recommend or do you believe that situation merits 
asking the Department of Justice to seek en banc review of the Duke 
Power decision by the Fourth Circuit?
    Response. I have not been involved in the deliberations within EPA 
on what steps the Agency should take in response to the Fourth Circuit 
decision in Duke Power. Therefore, I am not in a position to set forth 
a personal recommendation on that issue that would reflect 
consideration of all of the relevant factors.

    Question 1b. Please work with EPA to provide me with information, 
before you are confirmed, which describes who is ultimately responsible 
for deciding whether to seek such review?
    Response. The decision whether to seek en banc review of a ruling 
by the U.S. Court of Appeals normally rests with the Solicitor General 
of the United States, after consideration of recommendations from the 
affected agency or department, and staff within the Department of 
Justice.

    Question 1c. Please work with EPA to provide me with analysis, 
before you are confirmed, of how the D.C. Circuit's opinion affects 
information gathered by EPA on previous NSR violations and the status 
of potential NSR violations among various classes of industry?
    Response. Since the D.C. Circuit issued its decision in State of 
New York only very recently, I believe it will take some time for EPA 
to determine how the opinion affects information gathered by EPA on 
previous NSR violations and the status of potential NSR violations 
among various classes of industry. Therefore, I am not certain that the 
Agency will be in a position to complete such analysis in the relative 
short term. However, I can assure you these court decisions would not 
alter my view that NSR enforcement is an important tool in implementing 
the Clean Air Act.

    Question 2. EPA's enforcement policy requires the Agency to issue a 
notice of violation within sixty days of identifying a ``high priority 
violator'' under the Clean Air Act. The Environmental Integrity Project 
submitted a Freedom of Information Act request seeking notices of 
violation issued to 20 three power plants that EPA has identified as 
``high priority violators.'' EPA has responded that it failed to issue 
any ``notice of violations,'' in clear violation of its own enforcement 
policies.
    Before you are confirmed, please provide me with a description of 
the specific actions that you will take to address the lack of ``notice 
of violations'', including whether you will immediately review the 
cases identified by the Environmental Integrity Project as required 
under the Agency's own policy.
    Response. Enforcement is an important tool in implementing the 
Clean Air Act. If confirmed, I intend to work with the Office of Civil 
Enforcement regarding enforcement to ensure that the best environmental 
results are achieved, taking into consideration available resources. 
Enforcement matters typically involve weighing the specific facts 
relevant to each individual case. As I have not been involved in the 
NSR enforcement efforts, I am not currently in a position to describe 
specific actions that I would take with respect to on-going NSR 
enforcement cases. Thus, while I am not familiar with the specific 
cases that the Environmental Integrity Project is referencing, I commit 
that I will thoroughly review all of these matters, if confirmed.

    Question 3. Please provide me with a list of all of the 
environmental enforcement cases, before you are confirmed, which you 
have worked on during your career, including the party that you 
represented and the outcome of the case. Please specify your capacity 
in each case (e.g. lead attorney, supporting attorney, expert . . . ).
    Response. Under the D.C. Rules of Professional Conduct, an attorney 
may not reveal confidential client information. Under Rule 1.6--
Confidentiality of Information, ``a lawyer shall not knowingly: (1) 
Reveal a confidence or secret of the lawyer's client . . .'' A list of 
all of the environmental enforcement cases that I have worked on during 
my career, including the party that I represented and the outcome of 
the case, would reveal confidential client information. This 
confidential information includes the fact that I have worked on 
specific cases, as well as the identity of specific clients. Consistent 
with the D.C. Rules of Professional Conduct, I am unable to provide 
this list.
    However, if confirmed, in the event that I am confronted with a 
potential conflict of interest, I intend to consult with the Agency 
ethics officials to ensure compliance with all government ethics 
requirements.
                                 ______
                                 
 Outstanding Document and Information Requests to the EPA from Senator 
                 James M. Jeffords, as of July 14, 2005
                     1. original request: may 2001
    The EPW Committee has repeatedly requested an ``apples-to-apples'' 
comprehensive comparison of the various multi-pollutant legislation 
proposals and their allocation methods (including the Clean Power Act, 
the Clean Air Planning Act and the Clear Skies Act) using the same 
models and assumption and estimates of the net air quality and public 
health impacts of any elimination of existing Clean Air Act provision. 
These proposals should be compared to the final Clean Air Interstate 
Rule and the Clean Air Mercury Rule, as well as any other State or 
Federal programs and settlement agreements affecting or potentially 
affecting power plant pollution, as the base case.
            2. original request: december 2001 and july 2002
    An updated privilege log of the documents in EPA and DOE possession 
relating to the New Source Review program regulation changes including:

         (a) the resulting impacts of the rules on future emissions;
         (b) the impacts on EPA, State, or citizen NSR enforcement, 
        including settled or pending cases, or cases that may have been 
        ripe had the rules not been changed, or future enforcement 
        authority;
         (c) the impacts on attainment or maintenance of the NAAQS for 
        SIPS, FIPS, or tribal implementation purposes;
         (d) the legal consistency of inconsistency of the rules; and
         (e) the extent to which fewer sources may take permit limits 
        to ``net out'' of NSR, and the related future emissions impact 
        (provided only a qualitative estimate with no mechanism to 
        detect impact).

    Additionally, EPA has not produced a quantitative analysis of the 
effects that the new and proposed NSR rules would have on the 
environment and public health, as was promised during both a July 16, 
2002, joint-EPW-Judiciary Committee Hearing and a September 3, 2002, 
HELP Committee Hearing, and as is required by Executive Order 12866.
                   3. original request: december 2001
    EPW members originally requested a log of documents to the proposed 
New Source Review rules on December 14, 2001. After EPA failed to 
deliver the log by the promised date of October 24, 2002, EPW 
resubmitted the request on December 20, 2002. A log was finally 
received on January 22, 2003--after the first set of rules was 
finalized. However, the log is only a partial collection of the 
documents that would be responsive to the request, it does not contain 
information pertaining to document content, and it ends on September 
30, 2002. EPW has requested a log that identifies document content 
pertaining to both sets of rules finalized in December 2002 and August 
2003, through the date of the Agency's response to this request, which 
covers all documents described in the original request. To date the 
Agency has not provided an updated privilege log of the documents in 
EPA and DOE possession relating to the New Source Review program and 
regulations.
                    4. original request: august 2001
    Senator Jeffords wrote to Administrator Whitman on August 10, 2001, 
with follow-up questions to a July 26, 2001, hearing, seeking a 
consolidated estimate of the public health and environmental benefits, 
including tons of pollution avoided, achieved through full 
implementation of all Clean Air Act Programs (including NSR, MACT, and 
PM<INF>2.5</INF>/Ozone) that the Administrator mentioned during the 
hearing would be potentially ``unnecessary'' under the Administration's 
Clear Skies Act. A good faith effort by EPA needs to be made to 
estimate the net air quality and public health impacts of the 
elimination of the Clean Air Act Provisions mentioned above as proposed 
in the Administration's Clear Skies Act, and needs to be reported to 
Congress.
            5. original request: february 2003 and july 2004
    In an EPW briefing in February of 2003, EPW Committee staff asked 
for the amount of methyl bromide currently in stockpiles in the United 
States. EPA replied that it would not fulfill the request because it 
considered this confidential business information. As stated by 
Committee staff in subsequent email correspondence and meetings, this 
assertion does not apply to congressional requests. Again, in a July 
22, 2004 letter to Administrator Leavitt, Senator Jeffords made a 
formal request that this information be provided. EPA's response was 
that it was barred from providing Congress with this information 
pending the court's decision in a related lawsuit. The Ranking Member 
of the Senate Environment and Public Works Committee does not recognize 
this as a sufficient reason for denying Members of Congress this 
information.
                   6. original request: july 22, 2004
    In a July 22, 2004 letter to Administrator Leavitt, Senator 
Jeffords made several inquiries that the Agency considers privileged 
under the Freedom of Information Act (FOIA). The Agency has not 
provided a legal rationale for its failure to respond to the request 
for information, nor has it directly addressed the question of 
congressional access to information.
       7. original request: october 20, 2004 and february 9, 2005
    In an October 20, 2004 letter, Senator Jeffords and Senator Boxer 
made an information request regarding Superfund sites receiving no 
funds in fiscal year 04 and sites receiving only partial funds in 
fiscal year 04. The Agency has not provided information about the 
remedial activities that were not
    conducted at the 34 ranked unfunded sites due to inadequate funds. 
Additionally, neither Senator received a response to their request for 
information about sites receiving only partial funds in fiscal year 04. 
During the February 9, 2005, EPA Budget Hearing, Senator Jeffords 
reiterated these requests, but has received no new information, let 
alone updated information for fiscal year 05.
                   8. original request: december 2004
    In December 2004, EPW staff requested by email that the reports and 
the drafts of those reports for the National Acid Precipitation 
Assessment Program required to be submitted to Congress for the years 
2000, 2002, and 2004, under section 1030) of the Clean Air Act. Senator 
Jeffords formally made this request to James Connaughton in followup 
questions to a February 2, 2005 hearing. Senator Clinton made this same 
request in April 2005 during the nomination hearing of Administrator 
Johnson. In Administrator Johnson's response, it was indicated that the 
requested documents would be made available in May or June. In a June 
24, 2005 letter, Senator Jeffords and five other senators reiterated 
the same request for these reports and drafts of the reports. On July 
13, 2005, the Office of Science and Technology Policy replied in a 
letter stating the report will be available by August 22, 2005.
                 9. original request: february 9, 2005
    Senator Jeffords is still awaiting responses to his questions for 
the record relating to the EPW Committee hearing of February 2, 2005, 
for James Connaughton, Chairman of CEQ. The questions were submitted on 
February 9, 2005, but the Senator has still not received any response.
                  10. original request: april 6, 2005
    In follow-up questions to the nomination hearing of Administrator 
Johnson, Senator Jeffords requested the status and the promulgation of 
the proposed implementation rules for the revised PM-<INF>2.5</INF> and 
ozone (second phase) National Ambient Air Quality Standards (NAAQS). 
This request was initially made in 2004. The Agency has no working 
deadline or given any indication of when the rules will be proposed.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
